            JOINT STRATEGIC
            OVERSIGHT PLAN
            FOR AFGHANISTAN
            RECONSTRUCTION FY13
            JOINT STRATEGIC PLANNING SUBGROUP FOR
            OVERSIGHT OF AFGHANISTAN RECONSTRUCTION




JULY 2012
FROm THE INSPECTORS GENERAL


We, the undersigned members of the Joint Strategic Planning Subgroup for Oversight of
Afghanistan Reconstruction, are pleased to present the Inspectors General Fiscal Year
2013 Joint Strategic Oversight Plan for Afghanistan Reconstruction.
  Since 2002, the Offices of the Inspectors General, the Government Accountability
Office, and the Department of Defense Service audit agencies have issued 202 reports
on audits, inspections, and evaluations of Afghanistan reconstruction efforts. This over­
sight plan builds on these past efforts and takes into consideration:
•	 The United States and the Afghan Government’s strategic goals, objectives, initia­
    tives, and priorities related to reconstruction;
•	 The amount of funding requested, appropriated, obligated, and spent in various re­
    construction sectors and programs;
•	 Congressional and other stakeholder concerns about reconstruction efforts; and
•	 The risks we foresee in the next fiscal year related to Afghanistan’s reconstruction.
  The plan identifies 13 strategic issues and describes focus areas within each of these
issues to guide the development of audits, inspections, and evaluations that will provide
oversight for the major reconstruction programs in the coming fiscal year.
  Through this plan, we will be able to conduct comprehensive oversight of the recon­
struction effort. This plan enables us to better leverage our resources to cover issues
most critical to Afghanistan’s reconstruction and to provide Congress, United States
implementing agencies, and the American people with more focused assessments to
improve the efficiency and effectiveness of critical reconstruction programs and to miti­
gate fraud, waste, and abuse.




John F. Sopko                                              Harold W. Geisel
Special Inspector General                                  Deputy Inspector General
Afghanistan Reconstruction                                 Department of State




Lynne M. Halbrooks                                         Michael G. Carroll
Acting Inspector General                                   Deputy Inspector General
Department of Defense                                      U.S. Agency for International
                                                           Development
                                                UZBEKISTAN
                                                           CHINA
                                                                                                         TAJIKISTAN



         TURKMENISTAN                 JOWZJAN                        KUNDUZ              BADAKHSHAN
                                                     BALKH                      TAKHAR


                                                          SAMANGAN
                          FARYAB                                BAGHLAN
                                      SAR-E PUL                        PANJSHIR
                                                                               NURISTAN
                BADGHIS
                                                               PARWAN KAPISA        KUNAR
                                                    BAMYAN                  LAGHMAN
                                                                    KABUL
       HERAT                                               WARDAK
                                                                              NANGARHAR
                          GHOR                                    LOGAR
                                       DAYKUNDI                      PAKTIYA
                                                            GHAZNI                KHOWST

                                    URUZGAN
        FARAH
                                                                      PAKTIKA
                                                  ZABUL



                                                                                              PAKISTAN
       NIMROZ
IRAN            HELMAND
                                 KANDAHAR
Contents

            ExEcutivE Summary



            StratEgic iSSuES and FocuS arEaS

            SEcurity iSSuES
            Building the Capacity and Capabilities

            of the Afghanistan National Security Forces (ANSF)............................................12

            Administering and Maintaining Accountability of the Afghanistan

            Security Forces Fund .......................................................................................14


            govErnancE and dEvElopmEnt iSSuES
            Building Afghan Governance Capacity ...............................................................16

            Sustaining U.S. Investment in Afghan Institutions and Infrastructure...................18

            Increasing Revenue Generation within the Afghan Government ...........................20

            Implementing Civil Service and Pay Reforms within Afghan Government ..............22

            Implementing Afghan Electoral Reforms and Preparing for Elections ...................24





            countErnarcoticS and law EnForcEmEnt/rulE
            oF law iSSuES

            Executing and Sustaining Counternarcotics Programs ........................................28

            Expanding the Capacity of and Sustaining the Afghan Justice System .................30

            Implementing Anti-Corruption Initiatives ............................................................32


            croSScutting iSSuES
            Planning and Coordinating U.S. Assistance Programs ........................................36

            Providing Stewardship of Direct Assistance Funds .............................................38

            Awarding and Administering Reconstruction Contracts .......................................40





            appEndicES

            Appendix A: Reports Issued by Oversight Organizations FY2002 – FY2012..........43

            Appendix B: U.S. Government Appropriated Funds for Afghanistan

            Reconstruction................................................................................................44

            Appendix C: Abbreviations and Acronyms ..........................................................46

            Endnotes ........................................................................................................46

4   Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
   EXECUTIVE SUmmARY

   In November 2011, the Inspectors                coordinate audits among the princi­
   General of the United States (U.S.)             pal oversight agencies as embodied
   Departments of State (DoS),                     in Public Law 110-181 and Public
   Department of Defense (DoD), and                Law 112-74.1
   the U.S. Agency for International                  The Joint Strategic Oversight
   Development (USAID), joined                     Plan has 13 strategic issues as
   the Special Inspector General                   listed below. The issues are de­
   for Afghanistan Reconstruction                  fined as overarching questions the
   (SIGAR) to form the Joint Strategic             Inspectors General will answer col­
   Planning Subgroup for Oversight                 lectively through their planned au­
   of Afghanistan Reconstruction,                  dits, inspections, and evaluations.
   a subgroup under the Southwest                  The explanation of these issues
   Asia Joint Planning Group. The                  and the risks they are addressing
   Joint Strategic Planning Subgroup               are discussed in the strategic issue
   was established to provide more                 section of this plan along with the
   integrated and comprehensive                    specific areas of oversight focus.
   oversight planning for the $90
   billion Congress has appropriated               Security Issues
   over the last decade to rebuild
   Afghanistan. By conducting more                 1.	 Building the Capacity and
   focused oversight guided through a                  Capabilities of Afghan
   common strategic plan, the mem­                     Security Forces. To what
   bers of the Joint Strategic Planning                extent has DoD established
   Subgroup will be able to better                     requirements for Afghan se­
   protect taxpayer dollars, illumi­                   curity assistance and planned
   nate problems, identify successes                   acquisitions that align with
   and lessons learned, and improve                    the force structure of Afghan
   program performance in support of                   security forces, unit activations
   U.S. policy objectives.                             and deployment, and Afghan
      The Joint Strategic Oversight Plan               sustainment capabilities? Are
   for Afghanistan Reconstruction                      the Afghan National Security
   represents an interagency con­                      Forces (ANSF), comprising the
   sensus on the strategic issues and                  Afghan National Army and the
   focus areas the members of the                      Afghan National Police, making
   Joint Strategic Planning Subgroup                   sufficient progress in building
   intend to cover during Fiscal Year                  the capacity and capabilities to
   (FY) 2013. The subgroup coor­                       fully assume security responsi­
   dinated with the Government                         bilities and maintain account­
   Accountability Office (GAO) and                     ability for the equipment and
   the U.S. Army Audit Agency to de­                   supplies they receive?
   velop the issues and focus areas.               2.	 Administering and Maintain­
   The plan guides the development                     ing Accountability of the
   of audits, inspections, and evalua­                 Afghanistan Security Forces
   tions of Afghanistan reconstruction                 Fund (ASFF). Has DoD prop­
   the Inspectors General will include                 erly administered and main­
   in the annual Comprehensive                         tained accountability over the
   Oversight Plan for Southwest                        use of funds in the ASFF?
   Asia (COPSWA). Together with
   the COPSWA, these plans fulfill
   the congressional mandate to


Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   5
Governance and                                    reforms, and to what extent                    United States coordinated the
Development Issues                                have preparations been made                    programs to achieve unity of
                                                  for administering the Afghan                   effort with the Afghan Govern­
3.	 Building Afghan Governance                    2014 elections?                                ment and the international do­
    Capacity. To what extent has                                                                 nor community?
    the Afghan Government devel­             Counternarcotics and                            12. Providing Stewardship of
    oped the financial management            Law Enforcement/                                    Direct Assistance Funds. To
    capacity to manage resources             Rule of Law Issues                                  what extent are Afghan Govern­
    at the national and sub-national                                                             ment ministries providing stew­
    levels? What steps have been             8.	 Executing and Sustaining                        ardship of direct assistance
    taken to ensure that lessons                 Counternarcotics Programs.                      funds and achieving favorable
    learned from prior capacity                  Has U.S. assistance for Afghani­                outcomes from programs fund­
    building programs at the sub-                stan been successful in achiev­                 ed through direct assistance?
    national levels have been in­                ing the goals and objectives of             13. Awarding and Administering
    corporated into the design and               the counternarcotics strategy?                  Reconstruction Contracts.
    implementation of follow-on                  To what extent is the Afghan                    To what extent did DoD, State,
    capacity-building programs?                  Government capable of assum­                    and USAID award contracts
4.	 Sustaining U.S. Investment                   ing a lead role and sustaining                  competitively and administer
    in Afghan Institutions and                   progress in counternarcotics                    contracts for Afghanistan’s
    Infrastructure. To what ex­                  operations?                                     reconstruction in a manner
    tent have U.S. reconstruction            9.	 Expanding the Capacity                          to ensure that costs are con­
    programs and investments                     and Sustaining the Afghan                       trolled and contractors remain
    taken into account the capac­                Justice System. To what ex­                     on schedule and perform as
    ity of the Afghan Government                 tent have rule-of-law programs                  required?
    to sustain these programs and                been effective at improving the             In developing these strategic issue
    investments?                                 overall justice and corrections             areas the Joint Strategic Planning
5.	 Increasing Revenue Genera­                   system within Afghanistan and               Subgroup considered the following:
    tion within the Afghan Gov­                  increasing public access to                 •	 Prior oversight coverage to
    ernment. To what extent has                  justice?                                        include hotline complaints and
    the Afghan Government made               10. Implementing Anti-Cor­                          outcomes of investigations;
    progress in generating revenues              ruption Initiatives. To what                •	 the U.S. and Afghan Govern­
    to fund governmental opera­                  extent has the Afghan Gov­                      ment’s strategic goals, objec­
    tions? Has U.S. assistance been              ernment implemented anti­                       tives, initiatives, and priorities
    used effectively to implement                corruption programs within its                  related to reconstruction;
    Afghan customs and tax reform                ministries and made progress in             •	 the amount of funding request­
    initiatives?                                 deterring corruption by investi­                ed, appropriated, obligated, and
6.	 Implementing Civil Service                   gating, prosecuting, sanctioning                spent in various reconstruction
    and Pay Reforms within                       or removing corrupt officials                   sectors and programs;
    the Afghan Government. To                    from office, and implement­                 •	 Congressional and other stake­
    what extent has the Afghan                   ing financial transparency and                  holder concerns about recon­
    Government been successful in                accountability measures for                     struction efforts; and
    implementing civil service and               government institutions and                 •	 the risks the subgroup foresees
    pay reforms, and what actions                officials?                                      in the next fiscal year related to
    are planned or being imple­                                                                  Afghanistan’s reconstruction.
    mented to address remaining              Cross-Cutting Issues
    implementation challenges and                                                            PRIOR OVERSIGHT
    impediments?                             11. Planning and Coordinating                   COVERAGE
7.	 Implementing Afghan Elec­                    U.S. Assistance Programs. To
    toral Reforms and Preparing                  what extent has the U.S. Gov­               As of May 31, 2012, the Offices of
    for Upcoming Elections. Has                  ernment vetted and designed                 the Inspectors General, GAO and
    U.S. assistance been successful              assistance programs to ensure               the DoD Service audit agencies
    in achieving intended outcomes               they are necessary, achievable,             have issued 202 reports on audits,
    and sustainable electoral                    and sustainable; and has the                inspections, and evaluations related


6     Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
OVERSIGHT REPORTS ISSUED BY FISCAL YEAR AND TOTAL FUNDS APPROPRIATED (AS OF MAY 31, 2012)


80                                                                                                                                                                                                     18


                                                                                                                                                                                                       16
70


                                                                                                                                                                                                       14
60

                                                                                                                                                                                                       12
50




                                                                                                                                                                      Appropriations ($ billions)
                                                                                                                                                                                                       10
            Reports Issued




40
                                                                                                                                                                                                          8

30
                                                                                                                                                                                                          6

20
                                                                                                                                                                                                          4


10
                                                                                                                                                                                                          2


  0                                                                                                                                                                                                       0
          FY 02              FY 03       FY 04          FY 05            FY 06          FY 07          FY 08            FY 09           FY 10         FY 11          FY 12

                                                                Reports Issued                            Appropriations ($ billions)


 Fiscal Year                               2002        2003        2004          2005     2006        2007       2008           2009      2010      2011        2012                                Total

 1/ Appropriations ($ billions)             $1.1        $1.0       $2.6          $4.8      $3.5       $10.0       $6.2          $10.4     $16.6     $16.7       $16.4                               $89.4

 2/ Reports Issued                            0           2          6            4          7          10         10            31        47         56        3/ 29                               202

1/ Source of appropriations is Appendix B, SIGAR Quarterly Report to Congress, April 30, 2012
2/ Total excludes reports of financial audits performed by the Defense Contract Audit Agency and non-Federal auditors, and GAO reports on congressional testimony.
3/ The graph represents a projection of 71 reports to be issued by the end of FY 2012. The actual number of reports issued in FY2012 was 29 as of May 31, 2012 or eight months into
the fiscal year.


to the decade-long reconstruction                              (Appendix A identifies the number                                reports were reviewed to identify
effort in Afghanistan. An additional                           of reports issued by sector and                                  significant bodies of oversight work
42 reports are expected to be issued                           oversight organization.) The Joint                               for preparing capstone oversight
by the end of FY 2012 bringing the                             Strategic Planning Subgroup re­                                  reports that will summarize lessons
fiscal year total to 71 reports.2 As                           viewed these prior reports to identi­                            learned and challenges related to
shown in figure 1, the number of                               fy gaps in oversight coverage in the                             Afghanistan reconstruction efforts.
reports issued annually increased                              various sectors of Afghanistan’s re­                             Capstone reports provide a way
as appropriations increased.                                   construction. Although there were                                of reporting on systemic problems
   Oversight coverage spanned all                              not any major gaps in oversight                                  that are not readily apparent from
sectors of reconstruction with the                             coverage, the assessment identified                              oversight reports on individual
largest number of audits, inspec­                              some sectors with insufficient cov­                              programs. Capstone reporting also
tions, and evaluations performed                               erage in recent years. The subgroup                              is a mechanism for reporting out
in those sectors with the greatest                             addressed these matters in the                                   on a body of oversight work and
amount of appropriated funds.                                  strategic oversight plan. Also, prior                            bringing closure to strategic issues


                                                          Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012                                                            7
identified in the strategic oversight
plan. For the upcoming fiscal year,
the subgroup envisions issuing
capstone reports in the topic areas
of contingency contracting, sustain­
ment of Afghan reconstruction ef­
forts, building Afghan governance
capacity, and counternarcotics
operations.

RECONSTRUCTION
STRATEGY

The U.S. Integrated Civilian –
Military Integrated Campaign Plan
for Support to Afghanistan dated
February 2011, provides strategic
guidance from the U.S. Chief of
Mission and the Commander of U.S.
Forces-Afghanistan to American
personnel in Afghanistan, both civil­
ian and military, on the focus and
execution of the mission through
2014, with specific priorities for the
next 12-18 months. The campaign
plan is currently focused on four             bring total funding for Afghanistan’s           about the planning of reconstruc­
broad efforts:                                reconstruction to more than $100                tion programs, sustainability of
•	 Increasing the capability of the           billion, the largest sum ever pro­              the reconstruction effort, and
     ANSF and improving Afghan                vided for one country in such a                 widespread corruption within the
     security;                                short period of time. The previously            Afghan Government. For example,
•	 strengthening Afghan                       approved funds have supported                   a 2011 U.S. Senate staff report rec­
     governance;                              reconstruction activities in the fol­           ommended that U.S. assistance to
•	 expanding Afghans’ access to               lowing areas:                                   Afghanistan focus on what is neces­
     justice and promoting the rule           •	 Security                                     sary, achievable, and sustainable.4
     of law; and                                   $52.15 billion                             The report reflected congressional
•	 supporting sustainable, inclu­             •	 Governance and development                   questions about how reconstruction
     sive economic growth.                         $22.33 billion                             programs are being developed and
Each of these efforts has multiple            •	 Counternarcotics efforts                     whether they are having unintended
campaign objectives. The Joint                     $5.97 billion                              consequences such as fueling cor­
Strategic Oversight Plan builds on            •	 Humanitarian aid                             ruption and distorting labor and
the categories of effort, campaign                 $2.36 billion                              goods markets. The Commission
objectives, priorities and principles         •	 Oversight and operations                     on Wartime Contracting in Iraq and
in the campaign plan.                              $6.62 billion                              Afghanistan stated in its final report
                                              Appendix B has a more detailed                  that contract waste, fraud, and
RECONSTRUCTION                                breakdown of the funds appropri­                abuse take many forms:
FUNDING                                       ated for reconstruction by fiscal               •	 An ill-conceived project, no
                                              year.                                               matter how well-managed, is
Since 2002, the Congress has appro­                                                               wasteful if it does not fit the
priated more than $90 billion for the         CONGRESSIONAL AND                                   cultural, political, and eco­
reconstruction of Afghanistan. The            STAKEHOLDER CONCERNS                                nomic norms of the society it is
President has requested an addi­                                                                  meant to serve, or if it cannot
tional $12 billion for reconstruction         Congressional and other stake­                      be supported and maintained.
in FY 2013.3 If approved, this would          holders have expressed concern


8      Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
•	  Poor planning and oversight by              the next few years, require­                   Government will fall short in
    the U.S. Government, as well                ments for military equip­                      meeting this commitment. We
    as poor performance on the                  ment, supplies, services, and                  plan to evaluate the Afghan
    part of contractors, have costly            facilities will be unstable, and               Government’s progress and
    outcomes: time and money mis­               if not closely managed, could                  challenges in dealing with cor­
    spent are not available for other           result in wasteful procurement                 ruption, and assess whether
    purposes, missions are not                  actions. We believe a strong                   U.S. assistance for anti-cor­
    achieved, and lives are lost.               need exists for oversight of re­               ruption initiatives is focused
•	 Criminal behavior and blatant                quirements to make sure they                   in the areas of greatest need,
    corruption steal dollars from               have been fully vetted and are                 such as Afghan pay and grade
    what could otherwise be suc­                valid before new contracts are                 reform, merit based hiring,
    cessful project outcomes and,               awarded.                                       and improvements in financial
    more disturbingly, contribute          •	   Successful presidential and                    management.
    to a climate in which huge                  parliamentary elections are                •	 The upfront planning and
    amounts of waste are accepted               crucial to political stability                 coordination of assistance
    as the norm.                                and getting the Afghan people                  programs is an area prone
As a result of growing concern                  to recognize and accept the                    to weaknesses based on our
over corruption in Afghanistan,                 legitimacy of their government.                prior audits and inspections.
Congress included provisions in its             Afghanistan faces a number of                  These audits and inspections
2012 Consolidated Appropriations                financial, technical, and politi­              identified the need for more
Act requiring the Secretary of State,           cal challenges in establishing                 informed tradeoffs between
in consultation with the USAID                  sustainable electoral institu­                 risk and rewards in determin­
Administrator, to certify that the              tions and there is risk that prior             ing which programs to execute;
Afghan Government has made real                 investments made in develop­                   better defined program objec­
progress in addressing corruption               ing Afghanistan’s electoral ca­                tives and metrics; increased
before obligating appropriated                  pacity may not have been fully                 coordination of programs; and
assistance funds for economic                   sustained, thereby impacting                   integration of Afghan sustain-
support, narcotics control, and                 the capability of the Afghan                   ability into program design
law enforcement. These and other                Government to conduct a suc­                   and implementation.
concerns were considered by the                 cessful election. Our planned              •	 The risks associated with con­
Joint Strategic Planning Subgroup               oversight will assess U.S. assis­              tingency contracting remain
in defining the strategic issues and            tance supporting the electoral                 high. We plan to continue our
focus areas included in the Joint               process to make sure programs                  oversight to make sure the gov­
Strategic Oversight Plan.                       are being executed effectively                 ernment is paying fair and rea­
                                                and in time to support the next                sonable prices and not getting
RISKS AND PLANNED                               election cycle.                                overbilled by contractors for
OVERSIGHT                                  •	   Some programs are not show­                    items and services procured.
                                                ing progress in delivering                     Accordingly, we plan to in­
This plan considered risks the                  intended outcomes and they                     crease the number of incurred
Joint Strategic Planning Subgroup               may be at risk of failing. We                  cost audits of contracts and
foresees in the upcoming fiscal year            plan to evaluate these programs                grants to verify that the costs
related to the reconstruction effort.           to determine the root cause for                contractors billed to the gov­
The risks represent judgments by                not meeting program goals and                  ernment are valid.
the subgroup of potential condi­                objectives, and assess whether             The Joint Strategic Oversight Plan
tions that could likely impact the              these programs need to be                  accounts for these and other risks
achievement of U.S. strategic and               restructured or scaled back to             that will guide the Inspectors
program objectives, or result in the            deliver achievable outcomes.               General use of oversight resources.
occurrence of fraud, waste, and            •	   The Afghan Government has
abuse. For example:                             committed to take steps to curb
•	 Because of the uncertainty of                corruption. Because of the
    the composition and size of                 limited actions taken to date,
    Afghan security forces over                 there is high risk the Afghan




                                        Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   9
STRATEGIC ISSUES AND FOCUS
AREAS
This section discusses the 13 strategic issues the Inspectors General plan to cover during FY 2013 to
provide oversight of funds appropriated for Afghanistan’s reconstruction. We discuss the results of our
risk assessment of programs related to each issue, and present the focus areas for planned oversight
actions to address the risks.

10     Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
    SECURITY ISSUES
    Increasing the capability of the Afghanistan’s National Security Forces
    (ANSF) and improving Afghan security is a one of the four primary lines of
    efforts or pillars in the U.S. strategy as defined in the U.S. Integrated Civilian
    – Military Integrated Campaign Plan for Support to Afghanistan. The U.S.
    strategy is working toward developing the capacity and capabilities of the
    ANSF so that coalition forces can fully transition security responsibilities to
    the Afghan Government in FY 2014.
      As of March 31, 2012, Congress had appropriated about $52.1 billion—
    more than half of all reconstruction dollars—to develop the ANSF. Of this,
    Congress has provided $50.7 billion for the Afghanistan Security Forces
    Fund (ASFF), which was established in 2005 to train, equip, house, and
    sustain the Afghan National Army and the Afghan National Police. The
    President has requested an additional $5.75 billion for FY 2013. The follow­
    ing table shows the status of funds in the ASFF and the Administration’s
    request for FY 2013.

     AFghAnisTAn securiTY Forces Fund (sTATus As oF MArch 31, 2012)
                                                  1/ FYs                                                      1/ FY 13
                                                05-12 Funds           2/ Funds            2/ Funds              Funds
                                                Appropriated          obligated           disbursed           requested
                                                 (billions)           (billions)          (billions)           (billions)
       Infrastructure                             $11.67               $7.90                $4.71               $0.24

       equipment & transportation                  14.93               12.80                12.56                0.33

       training & operations                        7.14                4.50                4.43                 1.33

       sustainment                                 16.96               11.80                10.71                3.85

       totAL                                      $50.70               $37.00              $32.41               $5.75

    Sources:
    1/ DoD Congressional Budget Justifications for FYs 05-12 and SIGAR Quarterly Report to the U.S. Congress on Afghanistan
    Reconstruction, April 30, 2012
    2/ SIGAR Quarterly Report to the U.S. Congress on Afghanistan Reconstruction, April 30, 2012. Amounts are a sum of ASFF
    obligations and disbursements reported in the quarterly report for the Afghanistan National Army and Afghanistan National
    Police.


    This plan addresses two priority issues related to building Afghanistan’s
    security sector: (i) building the capacity and capabilities of the ANSF, and
    (ii) administering and maintaining accountability of the ASFF.




Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012                                    11
ISSUE 1: BUILDING                            the composition of security forces.               requirements before awarding new
                                             As conditions change, DoD and the                 contracts. This includes assessing
THE CAPACITY                                 ANSF will need to adjust require­                 whether DoD planned acquisitions
AND CAPABILITIES                             ments and synchronize the acquisi­                of equipment and facilities are syn­
                                             tion of equipment, supplies, servic­              chronized with unit deployments
OF THE ANSF                                  es, and facilities in response to the             and force structure and give due
                                             changing composition of security                  consideration of the capability of
STRATEGIC ISSUE                              forces. Otherwise, there is risk that             Afghan forces to sustain what is
                                             unnecessary procurement ac­                       acquired. Also, we plan to provide
To what extent has DoD established           tions and excess will result if DoD               oversight of the award and admin­
requirements for Afghan security             doesn’t closely manage require­                   istration of contracts for acquisi­
assistance and planned acquisitions          ments and planned acquisitions.                   tion of equipment and facilities as
that align with the force structure             Additionally, some of the $2.7                 discussed in more detail under the
of Afghan security forces, unit              billion7 of planned construction                  strategic issue for awarding and
activations and deployment, and              projects for the ANSF may not be                  administering reconstruction con­
Afghan sustainment capabilities?             needed. Because the 352,000 per­                  tracts. Further, we plan to monitor
Are the ANSF, comprising of the              sonnel strength target of the ANSF                the transfer of Afghan security as­
Afghan National Army and the                 is a temporary surge force,8 bases                sistance responsibilities from DoD
Afghan National Police, making               vacated by U.S. and North Atlantic                to DoS and the establishment of the
sufficient progress in building the          Treaty Organization forces can                    Office of Security Cooperation—
capacity and capabilities to fully           potentially be used to temporarily                Afghanistan to assess whether there
assume security responsibilities             support the ANSF in lieu of building              are gaps in transition planning,
and maintain accountability for              new permanent facilities to house                 particularly with regard to require­
the equipment and supplies they              and train Afghan security forces.                 ments and acquisition planning in
receive?                                     Because of the long-lead time to                  support of the ANSF.
                                             build facilities, there is risk that                 Another risk involves the training
RISK ASSESSmENT AND                          DoD hasn’t fully vetted approved                  of Afghan security forces. Prior au­
PLANNED OVERSIGHT                            projects to account for base trans­               dits and inspections reported weak­
COVERAGE                                     fers and use of temporary facilities              nesses with the training of Afghan
                                             to support the surge force.                       security forces by contractors and
We have identified a number of                  A Congressional Research                       the metrics used to measure train­
challenges and risks associated              Service report stated that a typical              ing effectiveness and capabilities of
with building the capacity and capa­         Afghan Army unit is only at about                 Afghan security forces.11 Planned
bilities of the ANSF. The major risk         50 percent of its authorized strength             oversight will review DoD’s efforts
areas include requirements, acqui­           at any given time, and there are                  to manage and execute contracts
sition planning, training, financial         significant shortages in about 40                 for training of the Afghan police. We
management and accountability,               percent of equipment items.9 In                   also plan to assess the effectiveness
and corruption.                              reference to the Afghan police, the               of leader development training for
   DoD faces difficult challenges            same report stated that most police               Afghan security forces. Developing
in estimating multi-year require­            units lack adequate ammunition                    effective leaders is essential to
ments because of the uncertainties           and vehicles. Equipment shortages                 the long-term sustainability of the
surrounding the future security              point to a potential lack of synchro­             ANSF.
situation and the size and composi­          nization of equipment purchases                      Building a sustainable Afghan se­
tion of the Afghan security forces.          and deliveries with the deployment/               curity force presents challenges on
Afghan security forces will reach            fielding of Afghan army and police                multiple fronts. One of the challeng­
their maximum strength of 352,000            units.                                            es is developing the literacy and
personnel5 in FY 2013 and will be               With about $2.1 billion of unob­               vocational skills to perform tasks
reduced to a more sustainable level          ligated funds for equipment and                   such as reading official forms and
of approximately 228,000 person­             about $2.7 billion of planned con­                manuals, maintaining equipment,
nel6 in FY 2017 if security condi­           struction projects for the ANSF,10                and operating computer systems all
tions continue to improve. Security          we believe a strong need exists for               essential to developing a sustain­
conditions will drive the pace of            oversight to determine whether                    able force that is not dependent on
the Afghan force drawdown and                DoD has sufficiently validated                    technical advisers and contractors.


12      Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
DoD reported that the literacy               are in place to deter corruption and
rate of the entire ANSF was about            pilferage.
14 percent as of March 31, 2012.12             In summary, our oversight strat­
Our plan provides for oversight of           egy for the ANSF is aimed at verify­
literacy and vocational training to          ing whether 1) available funds are
examine whether (i) training was             spent only on what is needed, 2) the
conducted by qualified instructors           acquisition of equipment, supplies,
in accordance with the approved              and services for the ANSF is well
curriculum, and (ii) outcomes were           planned and executed in a manner
measured, monitored, and acted               to deliver what is needed at reason­
upon when performance falls below            able cost, 3) acquired equipment
expected norms.                              and supplies are delivered, account­
   Another challenge is building sus­        ed for and properly safeguarded,
tainable institutional capabilities of       4) contractors are performing as
the Afghan Ministry of Defense and           required under contracts, 5) build­
the Ministry of Interior to perform          ing of ANSF capabilities is occur­
functions related to financial man­          ring as planned and in a manner to
agement, command and control,                ensure future sustainability, and 6)
health care, and logistics. Part of          the ANSF is developing financial
this challenge ties back to the high­        management capabilities and imple­
er level of skills needed to perform         menting processes and controls to
these functions and the dependency           exercise proper stewardship of its
on automated information manage­             resources.
ment systems to support these op­
erations. Other challenges involve           FOCUS AREAS:
instituting processes and controls
within the ministries to monitor op­         •	   Evaluate the extent to which
erations, provide financial transpar­             DoD planned for the equipping                   instructors in accordance with
ency, and maintain accountability to              and logistics support of the                    the approved curriculum, and
prevent the diversion or pilferage of             ANSF with due consideration                     outcomes are measured, moni­
medical supplies, pharmaceuticals,                of force structure changes,                     tored, and acted upon when
fuel, food, ammunition, equipment,                force deployment schedules,                     performance falls below ex­
and repair parts for the Afghan                   and the capability of the Af­                   pected norms.
forces. A Congressional Research                  ghan Government to afford and              •	   Assess whether individual,
Service report stated that in some                maintain the equipment.                         unit, and leadership training of
cases, equipment requisitioned by            •	   Determine whether construc­                     the ANSF is progressing in a
Afghan police commanders is being                 tion requirements for ANSF fa­                  manner to ensure that Afghan
sold and the funds pocketed by the                cilities were vetted for planned                forces are prepared to assume
police officers.13 DoD and Afghan                 transfer of coalition bases,                    security responsibilities.
security forces need to maintain                  changes in ANSF force struc­               •	   Evaluate progress by the ANSF
accountability over equipment and                 ture, and sustainability by the                 to develop the capacity and
supplies acquired for the ANSF to                 Afghan Government.                              capabilities for performing
ensure they are delivered, and not           •	   Determine whether U.S. Gov­                     functions related to command
diverted or pilfered. In our planned              ernment goals, objectives,                      & control, financial manage­
oversight, we will conduct multiple               plans, and guidance were is­                    ment, logistics, and medical
audits, inspections, and evaluations              sued and operative for estab­                   support; and assess whether
that address the challenges and                   lishment of the Office of Securi­               the U.S. Government has taken
risks discussed above. Our over­                  ty Cooperation—Afghanistan to                   actions to ensure capabilities
sight will help assure that Afghan                provide oversight of Afghan se­                 are sustainable.
institutional capacity and capa­                  curity assistance requirements.            •	   Determine whether the ANSF
bilities are being developed in a            •	   Verify that literacy, voca­                     is maintaining accountable
sustainable manner, and proper ac­                tional, and leadership train­                   control over equipment and
countability and control measures                 ing is conducted by qualified                   supplies.


                                         Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   13
ISSUE 2: ADmINISTERING                       the funds provided to the Afghan                       exists but cannot accomplish
                                             Government more difficult.                             its mission).
AND mAINTAINING                                 DoD tracks the use of funds with­              •	 Ministry of Defense Finance­
ACCOUNTABILITY OF                            in the ASFF through pseudo foreign                     -Capability Milestone Rating 2A
                                             military sales case accounts estab­                    (The department or institution
THE AFGHANISTAN                              lished for each appropriation of                       exists capable of executing
SECURITY FORCES FUND                         the security forces fund. Normally,                    functions with minimum coali­
                                             budget authority associated with                       tion assistance; only critical
                                             foreign military sales cases is treat­                 ministerial or institutional func­
STRATEGIC ISSUE                              ed as non-expiring money when                          tions are covered).
                                             transferred into the foreign military             •	 Ministry of Interior Finance and
Has DoD properly administered                sales trust fund. However, DoD                         Budget—Capability Milestone
and maintained accountability over           accounts for the ASFF differently:                     Rating 3 (The department or
the use of funds in the Afghanistan          funds transferred from the ASFF to                     institution cannot accomplish
Security Forces Fund (ASFF)?                 the trust fund retain the limitations                  its mission without significant
                                             placed on them when appropriated.                      coalition support).
RISK ASSESSmENT AND                          Such funds must be obligated prior                Our planned oversight will assess
PLANNED OVERSIGHT                            to the appropriation expiring and                 how DoD is financially managing
COVERAGE                                     expended prior to cancellation of                 and accounting for use of funds in
                                             the appropriation.14                              the ASFF. The primary benefits to
   The U.S. Congress appropriated               Managing expiring funds associat­              be derived from this oversight are
about $50.7 billion for the ASFF             ed with pseudo cases is a challenge               to identify funds that can be put to
from FY 2005 through March 31,               because the foreign military sales                better use and strengthen controls
2012. Of this amount DoD obligated           system was not designed with the                  to provide better accountability
about $37 billion and disbursed              automated controls to account for                 over the funds in the ASFF. Also,
about $32.6 billion. We have identi­         expiring appropriations.15 Financial              oversight coverage will evaluate
fied two risks to the management of          managers may therefore not readily                whether the Combined Security
the ASFF. First, DoD accounts for            detect residual funds from pseudo                 Transition Command-Afghanistan
and manages the ASFF in a unique             foreign military cases that can be                and the Afghan Government are
way. Second, the U.S. policy to              reprogrammed to satisfy other                     maintaining proper accountability
provide more direct assistance to            needs before an appropriation                     over direct assistance funds and
Afghanistan makes accounting for             expires.                                          have the controls in place to ensure
                                                A portion of the funds included                these funds are used for only autho­
                                             in the security forces fund are                   rized purposes.
                                             provided directly to the Afghan
                                             Government in the form of direct                  FOCUS AREAS
                                             assistance to spend on salaries and
                                             other pre-designated types of ex­                 •	   Verify that controls over ASFF
                                             penditures. The risk associated with                   transactions (including direct
                                             direct assistance funds is high be­                    assistance) are sufficient to
                                             cause of the immature capabilities                     make sure they are in accor­
                                             of Afghan ministries of defense and                    dance with laws and regula­
                                             interior to conduct financial man­                     tions, documented properly,
                                             agement operations and maintain                        and used for only approved
                                             accountability over its resources.                     items.
                                             For example, DoD reported in April                •	   Evaluate controls over ASFF
                                             2012 the following capability ratings                  pseudo foreign military sales
                                             for ministry financial management                      cases to determine whether
                                             capabilities:16                                        available funds were accounted
                                             •	 Ministry of Defense Account­                        for properly and unliquidated
                                                  ability and Transparency—Ca­                      obligations support valid needs.
                                                  pability Milestone Rating 4
                                                  (The department or institution


14      Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
GOVERNANCE AND DEVELOPmENT ISSUES

The U.S. reconstruction strategy emphasizes strengthening Afghan governance and supporting sustainable, inclusive
growth. Since 2002, Congress has provided about $22.3 billion to build Afghanistan’s governing institutions and foster
economic and social development. This money has gone into a number of funds and supported a myriad of programs
managed by USAID, DoS, and DoD including programs related to building governance capacity, promoting democ­
racy and civil society, growing the economy, building or rehabilitating infrastructure, expanding access to education
and health care, and expanding agricultural production. The four largest funds and programs, consisting of the
Economic Support Fund, Commander’s Emergency Response Program, Afghanistan Infrastructure Fund, and Task
Force for Business and Stability Operations; comprise about 89 percent of the $22.3 billion appropriated for gover­
nance and development. See Appendix B for breakout of all funds appropriated for governance and development.
  The Economic Support Fund, administered by USAID, accounts for about $13.02 billion—or a little more than
58%—of the funding for programs to improve governance and promote economic development. Congress has pro­
vided $3.4 billion for the Commander’s Emergency Response Program, the second largest fund supporting gover­
nance and economic development projects. In addition to the emergency response program, DoD is managing a
number of smaller funds including the Afghanistan Infrastructure Fund and the Task Force for Business and Stability
Operations. For FY 2013, the President has requested about $2.86 billion for the four largest funds and programs sup­
porting Afghanistan governance and development.
  The following table shows the status of these funds and the Administration’s request for FY 013.

 AFghAnisTAn governAnce And developMenT Funding (sTATus As oF MArch 31, 2012)

                                                                         FYs 05-12 Funds                                                                      FY 13 Funds
                                                                           Appropriated              Funds obligated            Funds disbursed                requested
                                                                             (billions)                 (billions)                 (billions)                   (billions)
             Commander’s emergency Response Fund                               $3.44                      $2.21                       $2.03                      $0.43

                     Afghan Infrastructure Fund                                $0.80                      $0.27                       $0.03                      $0.40

         task Force for Business and stability operations                      $0.56                      $0.36                       $0.17                      $0.18

                      economic support Fund                                   $14.95                     $11.47                       $8.82                      $1.85

                                totAL                                         $19.75                     $14.31                      $11.05                      $2.86

Notes: Numbers affected by rounding. Data may include interagency transfers.

Sources: SIGAR Quarterly Report to the U.S. Congress on Afghanistan Reconstruction, April 30, 2012. Amounts derived from SIGAR data calls to Office of Management and Budget (OMB), DoD,

and USAID.





This plan addresses five strategic issues related to governance and economic development: (i) building Afghan
governing capacity, (ii) sustaining U.S. investment in Afghan institutions and infrastructure, (iii) improving the
Afghan Government’s ability to increase revenue, (iv) implementing civil service and pay reforms within the Afghan
Government, and (v) supporting electoral reforms and preparing for upcoming elections.




                                                                 Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012                                    15
ISSUE 3: BUILDING                            institutional strengthening ef­                   able to effectively execute its bud­
                                             forts with Parliament to aid that                 gets. DoD reported the following
AFGHAN GOVERNANCE                            institution in developing its over­               about Afghan budget execution:
CAPACITY                                     sight, legislative, and outreach                     Budget execution continues to be
                                             capability.                                       a serious obstacle for the Afghan
                                                A key focus of U.S. capacity                   Government, which remains in­
STRATEGIC ISSUE                              building efforts is developing the                capable of effectively executing the
                                             capability within Afghan govern­                  budgets of large-scale donor devel­
To what extent has the Afghan                mental institutions at both national              opment projects. In the last three
Government developed the financial           and sub-national levels to make                   years, the Afghan Government
management capacity to manage                decisions about prioritizing the                  has been able to execute only 40
resources at the national and sub-           spending of finite resources that is              percent of its total development
national levels? What steps have             reflected in governmental budgets                 budget each year. For the first
been taken to ensure that lessons            and having governmental institu­                  six months of SY1389 (March-
learned from prior capacity build­           tions follow through on the spend­                September 2010), the Afghan
ing programs at the sub-national             ing of resources through budget                   Government had spent 25.3 per­
levels have been incorporated                execution. Strengthening this                     cent of its development budget.
into the design and implementa­              capacity will help Afghans make                   For the same period this year,
tion of follow-on capacity-building          responsible decisions about the use               development budget execution
programs?                                    of their finite resources, one of the             increased to 31.5 percent. These
                                             fundamental requirements of self-                 incremental gains, aided by tech­
RISK ASSESSmENT AND                          governance. It should also help the               nical assistance from USAID, the
PLANNED OVERSIGHT                            United States responsibly acceler­                World Bank, and the Department
COVERAGE                                     ate a shift to provide assistance                 of International Development, are
                                             directly to the Afghan Government,                positive steps. However, poor bud­
The FY 2013 DoS Congressional                allowing it to assume greater re­                 get execution is endemic and will
Budget Justification for Foreign             sponsibility for delivering sustain­              require generational change. The
Operations includes a request                able basic services and providing                 Afghan Government’s success in
for $447.2 million for strengthen­           greater economic opportunities to                 executing its operating budget is
ing governance capacity within               its people.                                       more mature. The execution rate
Afghanistan. Funding for strength­              U.S. efforts in strengthening                  of the operating budget in the first
ening governance totaled about               Afghan governmental budgeting                     nine months of this year was 64.7
$908 million in FYs 2011 and 2012.           capabilities parallel similar efforts             percent, an increase compared
The DoS budget justification states:         of the Afghan Government. The                     to the execution rate of the first
  The United States will focus               Afghan Government’s Ministry of                   nine months of last year (60.4
efforts on making formal and                 Finance strategic plan for 2009­                  percent).17
traditional governance structures            2014 aims to introduce program                       A report prepared by the Civil-
sustainable by improving their               budgeting and provincial budgeting                Military Fusion Centre, titled “Use
representativeness and effective­            mechanisms focusing on results                    It or Lose It: Budget Execution in
ness. Programs will include work             (outcomes) and channeling more                    Afghanistan,” dated April 2011,
to strengthen financial, adminis­            resources to the provinces and                    cited several systemic problems im­
trative, and technical capacity of           linking line ministries budget to                 pacting effective Afghan budget de­
Afghan Government institutions               national development strategic                    velopment and execution, such as
at both national and sub-national            priorities and objectives as well as              the lack of visibility and firm com­
level, and help to improve sub-              to provincial development plans.                  mitments about donor assistance,
national basic service delivery.             Also, the ministry’s Public Financial             government officials at the national
In addition, funds will support              Management Roadmap, dated July                    and provincial level not knowing
the Civil Service Commission to              14, 2010 contains reform initiatives              their available funds to spend, com­
develop the capacities of Afghan             that strengthen program budgeting                 plex approval processes, limited
Government line ministries at                and improve budget execution.                     governmental capacity to design
both national and sub-national                  Despite the priority placed on                 programs and award contracts,
levels and promote institutional             building governance capacity, the                 and limited decentralization of
reform. USAID will also continue             Afghan Government hasn’t been                     authority to provincial and district


16      Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
offices. A SIGAR audit report                stabilization initiative and local
titled “Weaknesses in Reporting              governance program were intended
and Coordination of Development              to create conditions that build
Assistance and Lack of Provincial            confidence between communi­
Capacity Pose Risks to U.S.                  ties and the Afghan Government
Strategy in Nangarhar Province”              through district or local officials
(Report No. 11-1, issued October             by providing grants for small-scale
26, 2010) affirmed the systemic              development projects, training
problems discussed in the Fusion             local officials in public administra­
Centre report. Additionally, a GAO           tion, and increasing the capacity
audit titled “Performance-Data               of district and local governments
Gaps Hinder Overall Assessment               to deliver services to their citizens.
of U.S. Efforts to Build Financial           The audits identified millions of dol­
Management Capacity,” concluded              lars in questioned cost, weak pro­
that there was insufficient data to          gram and contract oversight, and
show that USAID projects had im­             little evidence of success. Because
proved the capacity of Afghan pub­           of these previously reported prob­
lic financial management.18                  lems, we will continue to provide
   We believe that unless the sys­           oversight of follow-on governance
temic weaknesses previously dis­             capacity building programs such as
cussed are fixed, there is high risk         the District Development Program,
that USAID projects may not be               Performance-Based Governor’s
successful in improving the capac­           Fund, and the Regional Afghan
ity of the Afghan Government to              Municipalities Program for Urban
prepare and execute budgets and              Population. Our planned oversight
manage its resources effectively.            will evaluate the outcomes and
Further, the GAO audit identified            merits of these programs, validate
shortcomings with USAID’s mea­               contract costs, and determine
surement of project outcomes for             whether USAID applied lessons
building financial management                learned from prior governance                        operations and maintenance
capacity.19 Without clear metrics of         programs into the design and ex­                     costs of government ministries
performance, there is high risk that         ecution of follow-on programs.                       and provincial governments.
USAID may not be providing suf­              Also, we plan to prepare a capstone             •	   Assess the extent of actions
ficient oversight of technical advis­        report to capture the results of the                 taken by the Afghan Govern­
ers to ensure they are performing            body of oversight work we per­                       ment to improve the capacity
as required and that programs are            formed of governance programs                        of the ministries to spend funds
designed and implemented with                and summarize the lessons learned,                   and execute operations in ac­
a clear focus toward transition              remaining challenges, and any gaps                   cordance with the approved
and sustainability to the Afghan             in the actions being taken by the                    budget.
Government. We plan to address               U.S. Government to address the                  •	   Determine if U.S. funded gov­
these and other risks in providing           challenges to building effective and                 ernance and capacity building
oversight coverage of U.S. efforts           sustainable governance capacity.                     programs include provisions for
in building Afghan governance                                                                     transitioning responsibilities
capacity.                                    FOCUS AREAS                                          from external technical experts
   USAID has several ongoing as­                                                                  to Afghan civil servants.
sistance programs to improve gov­            •	   Determine the extent to which              •	   Evaluate lessons learned from
ernance capacity at the provincial,               the Afghan Government has                       previous governance programs
district, and municipal levels of gov­            developed the capacity to                       and determine if USAID incor­
ernment. During FY 2012, USAID                    prepare a budget that reflects                  porated these lessons into the
OIG and SIGAR completed audits                    the priorities and needs of the                 design and implementation of
of the Afghanistan Stabilization                  national and sub-national levels                follow-on programs for building
Initiative and the Local Governance               of government and includes the                  the capacity of governments at
Development Program.20 The                        resources required to support                   the sub-national level.


                                         Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   17
ISSUE 4: SUSTAINING                          projects and programs, will turn                  ensure such costs are priorities
                                             into waste if the host governments                and are within budget in a scarce
U.S. INVESTmENT IN                           cannot or will not commit the                     resource environment. Projects are
AFGHAN INSTITUTIONS                          funds, staff, and expertise to oper­              to be recommended for modifica­
                                             ate and maintain them.22 The report               tion, postponement, or cancellation
AND INFRASTRUCTURE                           went on to state in overseas con­                 if there is not a sufficient commit­
                                             tingencies that require funding for               ment to fund recurrent costs.
STRATEGIC ISSUE                              contracts, planning for projects and                 DoD also established regulations
                                             programs must take into account                   to consider project sustainability as
To what extent have U.S. recon­              the host country’s technical and                  part of evaluating projects funded
struction programs and investments           financial capabilities to operate and             under the Commander’s Emergency
taken into account the capacity of           maintain them once international                  Response Program. Program
the Afghan Government to sustain             donors’ support is gone. Failure to               regulations for evaluating proposed
these programs and investments?              do so not only wastes U.S. taxpay­                projects of $50,000 or more note
                                             ers’ funds, but undermines local-                 that responsible staff are required
RISK ASSESSmENT AND                          government credibility and impedes                to consider the sustainability of the
PLANNED OVERSIGHT                            progress in reconstruction and sta­               project, including preparing a mem­
COVERAGE                                     bilization. The Commission recom­                 orandum of agreement and obtain­
                                             mended that officials at DoD, DoS,                ing the signature of the responsible
Since 2008, the Inspectors General           and USAID:                                        Afghan official acknowledging re­
and GAO reported the need for                •	 Examine both completed and                     sponsibility and his or her commit­
integrating sustainability into                   current projects for risk of                 ment to budget for this agreement.
the various programs that were                    sustainment failure and take                 These regulations also state staff
audited. A June 2011 Senate staff                 appropriate action to cancel or              should address whether recipients
report issued by the Committee on                 redesign programs and projects               of program funding for projects
Foreign Relations recommended                     that have no credible prospect               equal to or greater than $500,000
that U.S. assistance to Afghanistan               of being sustained.                          have a plan for sustainability and
focus on sustainability.21 The report        •	 Ensure that any new require­                   who will be providing long-term
cited a simple rule: Donors should                ments and acquisition strate­                maintenance and sustainability for
not implement projects if Afghans                 gies for contingency contracts               the project.23
cannot sustain them. The report                   for projects or services to be                  To ensure that the sustain-
said:                                             handed over to a host nation                 ability guidance is followed, the
  “Development in Afghanistan                     include a detailed assessment                Congress put restrictions on the
will only succeed if Afghans are                  of long-term costs and of host               use of some funds appropriated for
legitimate partners and there is                  nations’ ability and willingness             reconstruction when it passed the
a path toward sustainability. The                 to meet those costs.                         Consolidated Appropriations Act,
Afghan Government must have                  •	 Report to Congress, by De­                     2012. The appropriations act states
sufficient technical capability and               cember 31, 2011, and annually                that none of the funds appropriated
funding to cover operation and                    thereafter, their analysis and               for the Economic Support Fund and
maintenance costs after a project                 proposed actions for mitigating              International Narcotics Control and
is completed. A sustainability                    sustainability risks.                        Law Enforcement may be obligated
strategy would consolidate our               In June 2011, USAID Administrator                 for assistance for the Government
programs, increase on-budget aid,            issued the sustainability guidance                of Afghanistan until the Secretary
streamline our rules and controls,           for Afghanistan. The guidance                     of State, in consultation with the
and pursue a limited number of               required for every project an esti­               USAID Administrator, certifies that
high-impact programs that do not             mate of all recurrent costs needed                funds will be used to design and
require complex procurement or               to maintain the services, infrastruc­             support programs in accordance
infrastructure.”                             ture, and institutions, as well as                with the June 2011 “Administrator’s
  The Commission on Wartime                  ongoing capacity building invest­                 Sustainability Guidance for USAID
Contracting in its final report to           ments that will be required. The                  in Afghanistan.”24
Congress stated that billions of dol­        guidance also required the devel­                    While issuance of the sustain-
lars already spent, including spend­         opment of plans with the Afghan                   ability guidance is a step in the
ing on apparently well-designed              Government, and other donors to                   right direction, we believe there


18      Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
is risk that sustainment plans do          a comprehensive government-                     FOCUS AREAS
not exist for many programs or             wide basis and as part of audits
projects, or the plans that do exist       and inspections of individual                   •	   Determine whether sustainabil­
have estimates of recurrent costs          programs and projects. We will                       ity was integrated into current
that are not reliable or lack a com­       evaluate compliance with the                         development programs consis­
mitted funding source. Factors that        Consolidated Appropriations Act,                     tent with the Administrator’s
may increase risk are the lack of          2012 and the USAID Administrator’s                   Sustainability Guidance for US­
implementing procedures and crite­         Sustainability Guidance for                          AID to Afghanistan.
ria for defining what programs are         USAID to Afghanistan. The ben­                  •	   Identify common problems
enduring and require sustainment           efit derived from this oversight                     with sustainment of devel­
funding, particularly when a com­          ties back to conclusions reached                     opment programs, lessons
plete inventory of reconstruction          by the Commission on Wartime                         learned, remaining challenges,
projects and their status has not          Contracting and the recognition                      actions being taken to address
been maintained. Also, DoD doesn’t         that failure to adequately address                   the challenges, and any gaps
have a dedicated recurring funding         sustainment will not only waste                      in the actions the U.S. Govern­
source to fund the sustainment of          U.S. taxpayers’ funds, but under­                    ment is taking to address sus­
projects through the Commander’s           mine local-government credibility                    tainment issues.
Emergency Response Program,                and impede progress in reconstruc­              •	   Assess the extent to which the
Afghanistan Infrastructure Fund,           tion and stabilization. Also, compli­                U.S. Government developed
and the Task Force for Business            ance with the sustainability guid­                   requirements and programmed
Stability Operations.                      ance will better ensure that ongoing                 funds to support sustainment
   Our planned oversight will look         and planned assistance programs                      of Afghan programs and infra­
at sustainment planning on both            are cost-effective.                                  structure investments.


                                       Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   19
ISSUE 5: INCREASING                            As of May 6, 2012, the website for              •	    developing the training capac­
                                             the Afghan Government’s Ministry                        ity for customs operations.
REVENUE GENERATION                           of Finance reported that a top pri­               Major tax reform initiatives cited in
wITHIN THE AFGHAN                            ority for the central government is               the ministry’s strategic plan include:
                                             to commence mobilizing revenue                    •	 educating the Afghan commu­
GOVERNmENT                                   so it can quickly provide essential                     nity on the need for revenue
                                             services from its own resources.                        mobilization for the central
STRATEGIC ISSUE                              Afghanistan’s SY1390 (fiscal year                       government and building confi­
                                             ending March 2012) National                             dence in a fair and honest rev­
To what extent has the Afghan                Budget stated that the main ob­                         enue administration;
Government made progress in                  jective of the government’s fiscal                •	 implementing a tax code;
generating revenues to fund gov­             strategy over the medium term is to               •	 developing simple and easy tax
ernmental operations? Has U.S.               ensure that domestic revenues are                       forms with instructions for de­
assistance been used effectively to          adequate to finance the operating                       termining tax liability
implement Afghan customs and tax             budget. This is the government’s                  •	 implementing a taxpayer identi­
reform initiatives?                          measure of fiscal sustainability.                       fication process;
                                             Therefore, as domestic revenues                   •	 establishing an efficient process
RISK ASSESSmENT AND                          improve, the government aims to                         for processing tax forms and
PLANNED OVERSIGHT                            gradually takeover funding of donor                     tax refunds that is not burden­
COVERAGE                                     grants for the operating budget. The                    some on business and individu­
                                             SY1390 budget forecasted a 31.7                         als; and
Revenue generation is a critical             percent increase in domestic rev­                 •	 building the capacity for tax
issue for the Afghan Government,             enues and the SY1391-1393 Ministry                      enforcement.
which does not collect enough                of Finance Pre-Budget Document                    Other revenue initiatives include
through various taxes to sus­                dated September 2011 forecasted                   commercializing the public utility
tain current operations or fund              a 21 percent revenue increase for                 sector such as building the capac­
development projects. Although               SY1391 (fiscal year ending March                  ity of the national electricity utility,
the Afghan’s Government’s abil­              2013). Afghan revenues are derived                Da Afghanistan Breshna Shekat
ity to generate revenue has                  from taxes on international trade                 (DABS) to operate on a full cost
gradually improved over the                  and transactions (customs duties);                recovery basis through customer
last few years, the World Bank               taxes on income, profits, capital                 billing and collection for electrical
estimates that expenditures will             gains, and property; taxes on the                 service. The pre-budget document
continue to outpace revenues,                sales of goods and services; and                  forecasts that at least 75 percent
leaving significant budget short­            other taxes and fees collected from               of electric sector costs will be
falls throughout the next decade.25          the selling of mineral rights.29                  recovered from users connected to
At the Bonn Conference, Afghan                 The Ministry of Finance Strategic               the national power grid by SY1393
President Hamid Karzai stated that           Plan SY1388-1392 cited a number                   (March 2015).
Afghanistan would be dependent on            of initiatives focused on enforce­                   The website for the Afghan
about $10 billion per year of inter­         ment of tax and customs laws and                  Government’s Ministry of Finance
national economic aid until 2025.26          regulations, collection of tax and                cited several challenges and risks
One of the goals agreed upon at the          non tax revenues, tax and customs                 related to enhancing revenue col­
Tokyo Conference on Afghanistan              reform. Some of the major reform                  lection including 1) low skill lev­
was to improve the Afghan                    initiatives for improving customs                 els of tax officials, 2) systematic
Government’s revenue collection              revenue include:                                  corruption of tax officials, 3) low
through more efficient, transparent,         •	 automating the declaration                     wages of civil servants, 4) ineffi­
and accountable customs and tax                   processing system and revenue                cient work methods, systems and
systems.27 The agreed upon metric                 reporting;                                   practices to administer taxes, 5)
was for the Afghan Government to             •	 developing a bonded carrier                    widespread non-compliance with
raise the ratio of revenue collection             and warehousing system;                      tax laws, and 6) enforcement of tax
to gross domestic product from 11            •	 improving enforcement                          laws dependent upon police with
percent to 15 percent by 2016, and                activities;                                  little controls and uncertain ac­
to 19 percent by 2025.28                     •	 building and equipping customs                 countability for actions. The finance
                                                  stations and laboratories; and               ministry stated that assistance for


20      Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
taxation administration needs to be        The budget justification stated that            Government’s greatest needs and
urgently increased.                        USAID will significantly expand                 delivering expected outcomes. The
   USAID is funding a five year            commercialization efforts through­              primary benefit we anticipate from
project ($63 million total during          out major cities in the country by              our efforts is improving the effec­
2010-2014) to simplify the customs         improving billing and collections               tiveness of U.S. assistance in en­
clearance process.30 Customs col­          for electricity services, and reduced           hancing the Afghan Government’s
lections are susceptible to fraud          revenue losses due to illegal con­              generation of revenue and reducing
and corruption. According to DoS,          nections and non-payment. Other                 its dependence on the United States
corruption issues range from small         ongoing USAID programs such                     for long-term assistance funding.
bribes paid to customs inspectors          as Land Reform in Afghanistan
to large-scale smuggling and fraud         will assist the Afghanistan Land                FOCUS AREAS
that are often tied to provincial          Authority to identify, manage, lease,
governments and criminal patron­           and obtain revenue from Afghan                  •	   Assess the Afghan Ministry of
age networks.31 DoS reported that          Government lands.                                    Finance’s progress and remain­
customs collection has grown from             In addition to the challenges and                 ing challenges in implementing
$50 million in 2004 to almost $1           risks identified by the Ministry of                  customs and tax reforms, and
billion in 2011. However, staff mem­       Finance in regard to revenue col­                    determine if USAID’s assistance
bers at inland custom depots have          lection, we believe there is risk that               is focused on addressing these
suggested that up to 70 percent of         the Afghan Government may be try­                    challenges.
potential border revenue is lost           ing to increase revenue by charging             •	   Determine the extent to which
because of corruption. The Afghan          import duties, taxes, and other fees                 Afghanistan and Pakistan
Presidential Executive Commission          on goods imported into the country                   earned revenue from exempt
was designed to root out corrup­           or goods and services acquired in                    import duties and taxes on U.S.
tion in customs collections, but it        country by contractors doing work                    Government shipments, and the
had still not been established as of       under U.S. reconstruction con­                       actions the U.S. Government
March 30, 2012. DoS noted that the         tracts. International agreements be­                 has taken to seek refund of
commission’s authority could be            tween the U.S. Government and the                    taxes and duties paid.
used for counter-corruption efforts        Afghan Government exempt these                  •	   Determine the progress made
at borders, airports, and customs          goods and services from Afghan                       by the Afghan Government in
depots.32 The U.S. Department              Government taxation.34 Also, U.S.                    commercializing the public util­
of Homeland Security’s Border              assistance is funding the construc­                  ity sector and generating the
Management Task Force is the main          tion and equipping of customs sta­                   revenues to fund continuing
U.S. agency that aids the Afghan           tions and laboratories. We believe                   operations.
Government in its development              there is risk that customs stations             •	   Assess the Afghan Govern­
of anti-corruption measures at             and laboratories may not be fully                    ment’s progress and remaining
customs locations in Afghanistan.          sustained, thereby undermining ef­                   challenges in implementing
The Task Force provides infrastruc­        forts to implement custom reforms                    land reform initiatives, and de­
ture and training programs to the          and increase revenue.                                termine the extent to which US­
Afghan Customs Department and                 During the next two years we                      AID’s assistance is focused on
Afghan Border Police.33                    plan to commit oversight resources                   addressing these challenges.
   The DOS Budget Justification            focusing on revenue generation
for FY 2013 requests funding to            by the Afghan Government. We
strengthen Afghanistan’s manage­           will examine whether Afghan gov­
ment of public finances, particu­          ernmental entities were charging
larly in revenue and expenditure           contractors working on U.S. funded
management. Assistance will                contracts for import duties, taxes,
support implementation of tax ad­          and other fees that were exempt
ministration and customs reforms           under international agreements and
in Afghanistan’s key provincial            whether these costs were passed
economic centers, diversifying             on to the U.S. Government. Also,
Afghanistan’s public revenue               we will determine whether U.S.
sources and improving prospects            assistance in support of revenue
for achieving fiscal sustainability.       generation is focused on the Afghan


                                       Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   21
ISSUE 6: ImPLEmENTING                        institutionalize, and harmonize                   qualifications, vetting of senior offi­
                                             common administrative systems                     cials, and implementing merit-based
CIVIL SERVICE AND PAY                        across the ministries, and create                 hiring and promotion.
REFORmS wITHIN THE                           a system for civil service train­                    The Ministry of Finance Annual
                                             ing within the government. As of                  Performance Review Report
AFGHAN GOVERNmENT                            December 2011, the IARCSC com­                    SY1390 stated that the Verified
                                             pleted pay and grade reform for                   Payroll Program covers 622,483
STRATEGIC ISSUE                              267,307 civil servants and teachers               (registered) government employ­
                                             in 17 ministries and agencies and                 ees. The payroll program was estab­
To what extent has the Afghan                implemented the human resource                    lished to improve pay management,
Government been successful in                management information system                     reduce payroll errors, and speed up
implementing civil service and               to maintain data on all civil ser­                the process of salary payments. The
pay reforms, and what actions are            vants. The Acting Director General                report further stated that 406,447
planned or being implemented to              of IARCSC said: according to the                  government employees who were
address remaining implementation             decision of Council of Ministers all              registered in the payroll program
challenges and impediments?

RISK ASSESSmENT AND
PLANNED OVERSIGHT
COVERAGE

Under Afghanistan’s SY1390
National Budget (March 2011­
March 2012), about 76 percent of
the government’s operating budget
was for wages and salaries of gov­
ernment employees. For SY1391,
which began in March 2012, wages
and salaries were expected to
increase by about 19.5% for SY1391
because of increased person­
nel in the security forces and the
implementation of pay and grade
reforms.35 A large portion of the
Afghan Government’s wages and
salaries were paid for through the
Afghanistan Reconstruction Trust
Fund, Law and Order Trust Fund
for Afghanistan, and ASFF.36 The
United States was the largest donor          governmental agencies should be                   received their monthly payments
to the Afghanistan Reconstruction            brought under coverage of pay and                 through direct deposits to their
Trust Fund and Law and Order                 grading system by the end of 1391                 bank accounts. The goal of the
Trust Fund.37                                (March 2013).39 By having a stan­                 Afghan Government is to have 100
  The Civil Service Support                  dard salary structure, the Afghan                 percent of government employees
Program is USAID’s program                   Government can curb abuses re­                    in the payroll program and receiv­
providing direct on-budget cash              lated to bribes and kickbacks in                  ing their salary payments through
assistance to reform and train the           setting employee pay and be able                  direct deposit by March 2015.
Afghan civil service.38 The pro­             to better control salary costs by en­             Implementation of the payroll pro­
gram works through the Afghan                suring that government employees                  gram and paying salaries through
Independent Administrative Reform            are paid amounts commensurate                     direct deposit can help reduce cor­
and Civil Service Commission                 with their duties and responsibili­               ruption and improve transparency
(IARCSC) to raise the skill levels of        ties. Other major reform initiatives              and controls over the pay process.
Afghan civil servants to modernize,          include establishing position


22      Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
  Prior audits have identified sig­            Also, we consider civil service                   thereby increasing the likeli­
nificant problems with the transpar­        and pay management high-risk ar­                     hood of data entry errors and
ency and controls over pay within           eas because of the patronage influ­                  lack of adequate safeguards
the Afghan Government. A SIGAR              ence in personnel decisions within                   regarding separation of duties
audit with a report date of October         the Afghan Government and vulner­                    and password protections; and
2010 concluded that neither the             ability of pay to abuse and corrup­             •	 Afghan ministries lacking re­
Afghan Government nor donors                tion. Some of the key risks include:                 sources to acquire computers
can account for the total number of         •	 pay and grade reform not uni­                     and operate networks to sup­
Afghan Government employees and                  formly implemented through­                     port automated pay and person­
technical advisors that receive sal­             out the government;                             nel systems, thereby hampering
ary support and how much they are           •	 government officials discrimi­                    payment of salaries.
paid, due in large part to a lack of             nating against women and                   Our planned oversight will address
transparency.40 In April 2011, SIGAR             ethnic minorities in making                these risks as part of our audits
reported that the payroll system for             merit-based hiring and promo­              and inspections of personnel and
the Ministry of Interior provided                tion decisions;                            pay processes. The primary benefit
                                                                                            we anticipate from our oversight
                                                                                            is to help ensure that civil service
                                                                                            and pay reforms are implemented
                                                                                            successfully and that the proper
                                                                                            controls are in place to mitigate
                                                                                            fraud, waste, and abuse.

                                                                                            FOCUS AREAS

                                                                                            •	   Determine whether USAID’s
                                                                                                 Afghan Civil Service Support
                                                                                                 Program achieved expected
                                                                                                 outcomes in support of initia­
                                                                                                 tives to implement merit-based
                                                                                                 hiring and promotion, and pay
                                                                                                 and grade reform.
                                                                                            •	   Identify the remaining imple­
                                                                                                 mentation challenges for imple­
                                                                                                 menting merit-based hiring and
                                                                                                 promotion, and pay and grade
                                                                                                 reform, and assess the extent
                                                                                                 to which USAID’s assistance
                                                                                                 is focused on addressing these
                                                                                                 challenges.
little assurance that the ministry          •	   pay structures not synchro­                •	   Assess the Afghan Govern­
paid only working Afghanistan                    nized with standard position                    ment’s implementation of the
National Police personnel or that                descriptions and qualifications;                Verified Payroll Program and
funds administered through the              •	   merit based hiring and promo­                   determine the extent to which
Law and Order Trust Fund for                     tions not consistently imple­                   the government demonstrated
Afghanistan reimbursed only eli­                 mented and enforced;                            the capability to make salary
gible costs.41 DoD OIG issued a re­         •	   pay approval processes re­                      payments to its civil service
port in February 2012 that identified            quiring inordinate number of                    employees for only authorized
$47.8 million of errors in payroll               approvals causing delayed pay­                  personnel, in accordance with
advances for the Afghan National                 ments and greater opportunity                   approved salary structures,
Army that were attributed to inad­               for corruption/bribes;                          through direct deposit, and
equate controls and procedures for          •	   low literacy rates and skill                    within established time frames.
verifying correct pay amounts.42                 levels in operating automated
                                                 personnel and pay systems,


                                        Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   23
ISSUE 7: ImPLEmENTING                        and polling-station levels. The FY                thereby driving a need for another
                                             2013 budget justification stated                  large infusion of assistance funds to
ELECTORAL REFORmS                            that funds will be used to support                conduct elections.
AND PREPARING FOR                            programs to strengthen the Afghan                    SIGAR issued a report in
                                             electoral system in preparation                   September 2009 on an audit of
PRESIDENTIAL ELECTION                        for the 2014 presidential and 2015                Afghan electoral capacity.44 This
                                             parliamentary elections. The same                 report cited a need for and recom­
STRATEGIC ISSUE                              justification stated that the United              mended a strategy to address na­
                                             States will help Afghans explore                  tional electoral capacity, matched
Has U.S. assistance been successful          options to strengthen their electoral             with an Afghan budget and human
in achieving intended outcomes and           system by sponsoring dialogues on                 resource structure capable of
sustainable electoral reforms and to         various longer-term reforms to im­                supporting sustainable electoral
what extent have preparations been           prove the responsiveness and rep­                 processes. To prepare for the 2010
made for administering the Afghan            resentativeness of Afghan political
2014 elections?                              institutions and processes. Other
                                             programs will provide training to
RISK ASSESSmENT AND                          political parties, issued-based coali­
PLANNED OVERSIGHT                            tions, and political entities to partic­
COVERAGE                                     ipate more effectively in the Afghan
                                             political process and to be more
A key priority of the U.S. recon­            responsive to constituent interests.
struction strategy is to support             Important voter and civic education
inclusive and constitutional Afghan          programs will engage and inform
presidential elections in 2014 and           the Afghan population about the
parliamentary elections in 2015. The         importance of the democratic elec­
United States and the international          toral and political process, as well
community see free and fair presi­           as individual rights and responsibili­
dential and parliamentary elections          ties to participate in that process.
as fundamental to establishing a                A major risk related to the up­
government that is legitimate in the         coming 2014 presidential election
eyes of the majority of the Afghan           is that it is occurring when the
people and thereby contributing to           United States and NATO will have
political stability.                         substantially drawn down military
   In its budget justification for           forces and transitioned security
FY 2013, the DOS requested fund­             responsibilities to Afghan security
ing of $64.3 million for assistance          forces. President Karzai hinted
programs involving political com­            at the possibility of moving elec­
petition and consensus building.43           tions up to 2013, which may leave
These funds are in addition to the           insufficient time to train electoral
$37 million of assistance provided           personnel and prepare for the elec­               elections, the audit determined that
during FY 2012 that were used                tions. Also, concerns over a secu­                the international community made
to build on institutional strides            rity vacuum with the drawdown                     available nearly $490 million in
made during the 2010 parliamen­              of U.S. and NATO will likely make                 assistance to support a legitimate
tary elections by enhancing the              it more difficult to contract for                 Afghan election administered by the
professionalization and capac­               technical advisers, particularly in               Independent Election Commission,
ity of Afghanistan’s Independent             insecure areas, to conduct training               of which the U.S. support com­
Electoral Commission as it plans             of election officials and execute                 prised over half ($263 million), as of
for future local, provincial, and            U.S. electoral assistance programs                August 2009. The audit found a lack
national elections. The FY 2012              at the provincial, district, and local            of focus on transferring the skills
budget justification cited an objec­         levels. Further, prior audits raised              to conduct elections and building
tive of training about 170,000 of­           concerns about sustainability of                  the long-term Afghan capacity to
ficials for election administration          the Afghan electoral system and                   internally conduct elections with­
at the national, provincial, district,       maintaining a reliable voter registry,            out another large commitment


24      Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
of resources, raising the risk that        contractor performance reviews                  headquarters offices; 4) develop­
international donors will need to          for the Support to the Electoral                ing procedures to manage and
continue to fund the election pro­         Process Program were not prepared               process election complaints; and
cess, particularly if broader capac­       and a rural radio program was not               5) conducting pre-election prepa­
ity development concerns are not           implemented.                                    rations, election operations, and
addressed.                                    On December 19, 2011, five                   logistics, and post-election sustain-
   Nearly two years later, USAID           members to the Afghanistan                      ability. Afghanistan faces significant
OIG issued a report on an audit of         Independent Election Commission                 challenges in ramping up its own
USAID’s Support to the Electoral           who were appointed by President                 financial support for elections, and
Process in Afghanistan.45 This             Karzai were sworn in. The                       other technical and political chal­
report identified the need for the         President’s sole discretionary pow­             lenges must be overcome to make
following actions to better ensure         er over appointments to the com­                Afghanistan’s electoral institutions
credible elections:                        mission has fueled concerns among               sustainable.
                                           some opposition groups regarding                   Our planned oversight of U.S.
                                           its impartiality in future elections.46         assistance to the Afghan electoral
                                           Also in December, the commission                system will focus on the risks previ­
                                           and United Nations Development                  ously discussed. We plan to deter­
                                           Programme signed ELECT II                       mine whether USAID’s electoral
                                           (Legal and Electral Capacity for                assistance programs are focused
                                           Tomorrow, second phase), a two-                 on the greatest needs and achieving
                                           year electoral assistance project               intended outcomes in time for the
                                           focused primarily on continued                  upcoming elections. Additionally,
                                           capacity-building and the strength­             we plan to review these programs
                                           ening of the commission.47                      to determine the extent to which
                                              A review of the Afghanistan                  they were designed for sustainabil­
                                           Ministry of Finance Pre-Budget                  ity by the Afghan Government.
                                           document for SY1391-1393 (March
                                           2013-March 2015) shows fund­                    FOCUS AREAS
                                           ing of about $2.3 to $2.4 million
                                           for on-budget operations of the                 •	   Determine if USAID electoral
                                           Independent Electoral Commission                     programs (Enhancing Legal and
                                           and no development funds pro­                        Electoral Capacity for Tomor­
                                           grammed for implementing elec­                       row, Support to the Elections
                                           toral reform initiatives. The low                    Process, and Support for In­
                                           level of funding by the Afghan                       creased Electoral Participation
                                           Government indicates that it                         in Afghanistan) are achieving
                                           remains dependent on donor as­                       intended outcomes and will be
                                           sistance to sustain the prior invest­                completed in time for the 2014
                                           ments made in developing national                    elections.
•	  instituting legal reforms to           electoral capacity. Some of these               •	   Assess the remaining challeng­
    protect the independence of            prior investments funded by U.S.                     es in preparations for the 2014
    the Independent Election Com­          assistance include 1) implement­                     elections and evaluate whether
    mission and the Electoral Com­         ing a sustainable national voter                     U.S. assistance is focused in the
    plaints Commission;                    registration program, to inform and                  most critical areas to best pre­
•	 reforming the “single non­              engage the Afghan public, and to                     pare Afghan Government for
    transferable vote” system of           deliver a credible voter register in                 the elections.
    representation;                        time for elections; 2) training party           •	   Determine the extent to which
•	 implementing actions to make            poll watchers and candidate polling                  capacity building efforts within
    Afghanistan’s electoral system         agents to effectively participate in                 the Afghan Independent Elec­
    more sustainable; and                  election day activities, and training                tion Commission and elec­
•	 improving reliability of the            journalists in elections coverage; 3)                toral reforms (e.g. national
    voter registry.                        standing up 34 provincial electoral                  voter registration program) are
In addition, the audit found that          offices and respective national                      sustainable.


                                       Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   25
COUNTERNARCOTICS AND LAW ENFORCEmENT/RULE
OF LAW ISSUES

Afghanistan produces 90% of the world’s opium and the drug trade constitutes one of the most significant challenges
to Afghanistan’s reconstruction.48 Poppy cultivation and the drug trade undermine rule of law by fueling an illicit
economy that supports the insurgency. The President has asked Congress to increase funding for both counternar­
cotics and rule of law programs.
   Congress appropriated $5.8 billion for counternarcotics initiatives in Afghanistan from 2002 through March 30,
2012.49 DoD and DoS have requested $630.4 million in FY 2013 for counternarcotics programs, about a 12 percent
increase over FY 2012 appropriations.50
   The DoD counternarcotics appropriation primarily funds intelligence operations to detect and monitor drug traf­
ficking, air mobility and training for the Afghanistan counternarcotics police, and facilities, training, and equipment
for the Afghanistan counternarcotics border police.51
   In its FY 2013 Budget Justification for Foreign Operations, the DoS stated that funds it requested for counter-
narcotics activities will continue to finance operations and maintenance support to the counternarcotics police of
Afghanistan including facilities maintenance, salary supplements, basic provisions, and mentoring. Also, funding
will be used to train and mentor counternarcotics police teams and continue a broad capacity building effort for
the Afghan Ministry of Counter Narcotics. Assistance will help the ministry further develop and manage drug policy
including regional cooperation, implementing incentive-based provincial programs such as the Good Performers
Initiative, promoting provincial poppy reduction with Governor Led Eradication, and improving public information
programs. Both the performers initiative and interdiction programs have a significant role in reducing the cultivation
of illicit crops and the trafficking of drugs, which fund the insurgency and are most prevalent in the insecure prov­
inces where the footprint of the U.S. military is most substantial. The budget justification further stated the DoS will
work with Afghan authorities to mitigate the social impact of drug use through public outreach, improved addiction
prevention and treatment programs, and drug demand reduction initiatives. Funds will also be used to pay for ad­
ditional program management and oversight requirements in Afghanistan and other allowable administrative costs
including aviation support, operations and maintenance, transportation, and personnel recruitment and training.52
   A major part of the U.S. reconstruction strategy is focused on expanding Afghans’ access to justice and promoting
the rule of law.53 U.S. support for the rule of law in Afghanistan focuses on efforts to provide Afghans with meaning­
ful access to fair, efficient, and transparent justice. The U.S. Government is also funding programs to develop Afghan
capacity to effectively investigate and prosecute national security and major counternarcotics cases. Key objectives
of the strategy54 are to:
•	 improve and expand access to the formal justice sector by increasing capacity and reducing corruption in key
     state justice institutions;
•	 partner with the Afghan Government to increase its capacity to manage its correctional facilities, thereby pro­
     moting a safe, secure, and humane corrections system that does not encourage radicalization of prisoners;
•	 assist Afghan efforts to regularize the traditional justice system and develop linkages with the formal justice sys­
     tem; and
•	 strengthen the leadership capacity of the Afghan Government’s justice sector institutions and civil society
     organizations.
Congress appropriated $448.4 million for rule-of-law efforts in FY 2012, and DoS has requested $471.1 million more
for FY 2013.55 The funds requested for FY 2013 will be used for the Administration of Justice Program, Justice Sector
Support Program, and Corrections System Support Program.56
   Funds for the Administration of Justice Program will focus on the promotion of civil society to create a demand
for legal rights to ensure that the need for a strong security sector is balanced by government protection of individu­
al rights, including the protection of at risk populations, particularly women and children.
   The Justice Sector Support Program provides training and mentoring programs on a nationwide basis, helping
investigators, prosecutors, defense attorneys, and judges to more effectively administer the justice system, while
also providing direct support to the Afghan Government’s Attorney General’s Office, Ministry of Justice, Supreme
Court, Ministry of Women’s Affairs, and other justice organizations. Assistance to ministries will include support for
salaries, infrastructure, and system integration. Programs will increasingly focus on building sustainability within


26      Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
Afghan justice institutions through a continuing program to develop organizational capacity for planning, financing,
communication, and functionality at the national and provincial levels. Funds will also support protective services
initiatives for women and children including shelters, legal aid for indigent women, legal rights of women, and
professional development programs for Afghan female justice practitioners. Funding will continue to support anti­
corruption programs, judicial security, and counternarcotics justice programs.
  The Corrections System Support Program provides a broad array of assistance to the correctional sector including
advice and training for officials at provincial prisons, inmate rehabilitation, infrastructure support, and initiatives for
women and juveniles. Funding will support an embedded capacity building team at the Central Prison Directorate
headquarters to help develop effective policies to ensure a safe, secure, and humane Afghan corrections system.
Salary support will be provided for the prison directorate through the Law and Order Trust Fund for Afghanistan.
Other activities in FY 2013 will include study trips to U.S. correctional facilities and a variety of services for vulner­
able inmate populations, including women and their children and juveniles housed in facilities managed by the
Juvenile Rehabilitation Directorate. Funds will also be used to pay for program management and oversight require­
ments in Afghanistan including aviation support, operations and maintenance, transportation, and personnel recruit­
ment and training.
  This plan addresses three strategic issues related to counternarcotics and rule of law programs: (i) execution and
sustainment of counternarcotics programs, (ii) building and sustaining the Afghan justice system, and (iii) imple­
menting anti-corruption initiatives.




                                           Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   27
ISSUE 8: ExECUTING                           the amount of opium produced in                   Affairs Counternarcotics Programs
                                             Afghanistan increased from 3,600 to               in Afghanistan” (Report No
AND SUSTAINING                               5,800 metric tons from 2010 to 2011.              MERO-A-10-02, issued December
COUNTERNARCOTICS                             Thus, the amount of drugs seized                  2009). The audit evaluated the ef­
                                             through interdiction operations has               fectiveness of counternarcotics
PROGRAmS                                     not kept pace with the increase in                programs administered by the
                                             opium production.                                 Bureau of International Narcotics
STRATEGIC ISSUE                                The DoD Report on Progress                      and Law Enforcement Affairs and
                                             Toward Security and Stability                     identified risks with the strategy to
Has U.S. assistance for Afghanistan          in Afghanistan, dated April 2012,                 include an unclear end state, lack
been successful in achieving the             reported major decreases in the                   of sustainment planning, and tran­
goals and objectives of the counter-         amount of illicit drugs seized and                sition of programs to the Afghan
narcotics strategy? To what extent           arrests made during the 6-month                   Government. The report also
is the Afghan Government capable             period ending March 31, 2012                      cited a need for better interagency
of assuming a lead role and sustain­         compared to the 6-month period                    coordination.
ing progress in counternarcotics             ending September 30, 2011. The re­                   A USAID OIG audit of USAID/
operations?                                  port cited a 49 percent decrease in               Afghanistan’s Alternative
                                             seized opium, a 54 percent decrease               Development Program Expansion,
RISK ASSESSmENT AND                          in seized morphine, a 93 percent                  South West (Report No. 5-306-10­
PLANNED OVERSIGHT                            decrease in seized heroin, a 56 per­              011-P, issued July 29, 2010) found
COVERAGE                                     cent decrease in seized liquid pre-               that the program made progress
                                             curser chemicals, and a 50 percent
In its latest opium survey, the              decrease (a total of 256 individuals)
United Nations Office on Drugs               in the total number of suspects
and Crime (UNODC) reported that              arrested.
the cultivation, manufacture, and              The DoD progress report further
distribution of illicit drugs remain         stated that the United States has
a major problem in Afghanistan.57            been revising its counternarcot­
The UNODC survey report cited the            ics strategy for Afghanistan. This
following negative trends from 2010          revision will prioritize counter-
to 2011:                                     narcotics assistance during the
•	 a 7% increase in opium cultiva­           security transition and drawdown
     tion (after eradication);               of U.S. and coalition combat forces.
•	 increase from 14 to 17 prov­              Additionally, the report stated that
     inces affected by poppy                 at the operational level, a new
     cultivation;                            counternarcotics campaign strategy
•	 a 61% increase in the amount of           was signed by the Commander,
     opium produced; and                     International Security Assistance
•	 a 133% increase in the total              Forces. The campaign strategy reit­
     farm-gate value of opium                erates the importance of degrading
     production.                             the insurgent-narcotics nexus while
DoD reported a total of 167.6 metric         simultaneously developing Afghan
tons of opium seized through inter­          capacity and capability for even­
diction operations for the 12-month          tual transition to greater Afghan
period ending March 31, 2012.58 The          responsibility.
total 12-month seizure is equiva­              Prior audits of counternarcotics
lent to about 630 metric tons of             programs identified problems with
opium after factoring in seizures for        counternarcotics strategy, sustain-
morphine and heroin and convert­             ability, performance measure­
ing the seizures to equivalent yields        ment, and contracting. DoS OIG
of opium production. To put these            issued an audit report titled “Status
seizures in context, the UNODC               of the Bureau of International
2011 opium survey reported that              Narcotics and Law Enforcement


28      Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
toward counteracting illicit poppy              GAO reported that it was unable              program performance (including
cultivation by providing alterna­            to fully assess the progress of the             oversight of contracts).
tive development programs and                counternarcotics strategy due to                  In addition, our planned oversight
improved economic opportunities              a lack of performance measures                  coverage will focus on sustainment
in selected southern and western             and interim performance targets to              of counternarcotics programs and
provinces. However, the USAID                measure Afghan capacity to con­                 evaluate progress in transitioning
OIG reported that sustainability of          duct counternarcotics operations.59             counternarcotics responsibilities
poppy reductions through alterna­            Also, GAO reported concerns about               to the Afghan Government. The
tive development may not be pos­             the unclear use of performance                  Consolidated Appropriations Act
sible due to: 1) a lack of a follow-on       information that DoD collected in               2012 states that none of the funds
alternative development program,             its database.60 In its report, GAO              appropriated for the International
2) a critical southern province not          stated that the full benefit of col­            Narcotics Control and Law
being included in the program, 3)            lecting performance information is              Enforcement may be obligated for
potentially limited access to mar­           realized only when managers use                 assistance for the Government of
kets for cereal crops and unstable           this information to inform key deci­            Afghanistan until the Secretary
cereal prices, 4) the chance that            sions to improve programs and re­               of State, in consultation with the
the success or failure of programs           sults, such as identifying corrective           USAID Administrator, certifies that
outside the mission’s control may            actions, allocating resources, and              funds will be used to design and
affect poppy cultivation and har­            sharing best practices for program              support programs in accordance
vest, and 5) unavailability of water         implementation. In addition, DoS                with the June 2011 “Administrator’s
to grow alternative crops.                   OIG and DoD OIG conducted sev­                  Sustainability Guidance for USAID
                                             eral audits of support contracts for            in Afghanistan.62 We plan to deter­
                                             counternarcotics programs. These                mine the extent of compliance with
                                             audits identified multiple problems             the sustainability guidance as part
                                             with contract management such as                of our oversight of transitioning
                                             poorly written contracts, contract              counternarcotics responsibilities to
                                             overpayments, and inadequate                    the Afghan Government.
                                             monitoring of contractors to ensure
                                             they performed in accordance with               FOCUS AREAS:
                                             the contract and correctly billed
                                             for the services provided to the                •	   Determine if counternarcotics
                                             government.61                                        programs (poppy elimination/
                                                We consider counternarcotics                      eradication, drug interdiction,
                                             programs a high risk because of                      justice reform, public informa­
                                             the $630.4 million of new funding                    tion, and drug demand reduc­
                                             requesting for FY 2013 (12 percent                   tion) are achieving intended
                                             increase from prior year) combined                   outcomes and identify the
                                             with the declining indicators of                     challenges and impediments to
                                             progress regarding poppy cultiva­                    making sustained progress.
                                             tion and drug seizures. Also, prior             •	   Examine U.S. agencies’
                                             audits have reported on problems                     monitoring and evaluation of
                                             with the counternarcotics strategy,                  counternarcotics programs
                                             sustainability of counternarcotics                   and determine actions taken
                                             programs, performance manage­                        to revaluate the strategic ap­
                                             ment, and contract management.                       proach and program direction
                                             The United States has developed                      in response to program metrics
                                             a new counternarcotics campaign                      and outcomes achieved.
                                             strategy, and our planned oversight             •	   Assess the extent to which the
                                             will focus on how well this strategy                 Afghan Government is pre­
                                             is working. Also, we will evalu­                     pared to sustain counternarcot­
                                             ate how DoD and the Bureau of                        ics programs.
                                             International Narcotics and Law
                                             Enforcement Affairs are monitoring


                                         Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   29
ISSUE 9: ExPANDING                           of programs that promote the rule                 to be mixed despite millions of
                                             of law in Afghanistan. The DoD                    U.S. dollars spent in this area.
THE CAPACITY                                 rule-of-law efforts include: field                In its latest Report on Progress
AND SUSTAINING                               support to civilian rule of law                   Toward Security and Stability
                                             teams; training judges, prosecutors,              in Afghanistan, DoD described
THE AFGHAN                                   and corrections officials; provid­                “lack of access to the formal justice
JUSTICE SYSTEm                               ing necessary infrastructure for                  system, poor enforcement of the
                                             courts and prisons; and training                  human rights protections guaran­
                                             MoI police forces in many aspects                 teed by the Afghan constitution,
STRATEGIC ISSUE                              of law enforcement, from inves­                   pervasive corruption, insufficient
                                             tigations to community policing.                  transparency, and unsatisfactory
To what extent have rule-of­                 USAID provides broader gover­                     protection of justice facilities and
law programs been effective at               nance and economic development                    personnel,” combined with “short­
improving the overall justice                support, and DoS provides funding                 age of human capital and lack of
and corrections system within                for modernizing court administra­                 political will on the part of the
Afghanistan and increasing public            tion and developing transparency                  Afghan Government.” The report
access to justice?                           in the prosecutorial process. Other               noted that although Afghanistan is
                                             agencies like Justice, Treasury and               adding to the ranks of its judiciary
RISK ASSESSmENT AND                          Commerce provide subject matter                   and expanding judicial infrastruc­
PLANNED OVERSIGHT                            experts who advise and train key                  ture, “progress toward a fully func­
COVERAGE                                     members of Afghanistan’s rule of                  tional, transparent, and fair justice
                                             law effort.63                                     delivery system remains tenuous.”64
The United States and coalition                 Progress in advancing the rule                    As of February 2012, USAID
partners conduct a broad range               of law in Afghanistan continues                   reported that its Rule of Law




30      Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
Stabilization Program trained 579            anticorruption strategy to include              inspections, and evaluate whether
judges, reached 27 percent of the            all of the U.S. mission’s rule-of-law           assistance funds are being spent
population through legal aware­              institutions, and 8) ensure that                wisely. Also, we plan to evaluate
ness campaigns, produced and                 funding for justice sector programs             whether the programs are being
disseminated almost 3.2 million              is coordinated and transparent                  administered in a manner to deliver
printed legal documents, and com­            among U.S. Government actors,                   sustainable outcomes.
pleted a baseline assessment of              the United Nations, and Non-
the informal justice system to help          Governmental Organizations.                     FOCUS AREAS:
measure increases in stability.65 In            A major impediment to increas­
addition, the U.S. Justice Sector            ing Afghan access to the formal                 •	   Determine the extent to
Reform Program trained 937 judges,           justice sector is the lack of ad­                    which rule-of-law programs
defense attorneys, prosecutors,              equate judicial security. A SIGAR                    are achieving their goals and
police officers, and other Afghan            audit “Actions Needed for a More                     objectives, and determine the
legal professionals for the 12-month         Strategic Approach to U.S. Judicial                  actions taken to reevaluate the
period ending March 31, 2012.66              Security Assistance” (Report No 10­                  strategic approach and pro­
Training of Afghan legal profession­         3S issued December 18, 2009) cited                   gram direction in response to
als is conducted by attorneys and            the need for 1) better coordination                  program metrics and outcomes
technical advisers working under             of judicial assistance among DoS,                    achieved.
the Justice Sector Reform Program.           DoD, Department of Justice, and                 •	   Evaluate DoS monitoring and
As of April 1, 2012, the DoS Bureau          the U.S. Marshals Service, 2) imple­                 evaluation of rule-of-law pro­
of International Narcotics and Law           mentation of commonly accepted                       grams to ensure that training is
Enforcement Affairs reported that            standards to help ensure organiza­                   delivered cost-effectively and
the program included 216 attor­              tional, management, and budgetary                    technical advisers are meeting
neys and advisers from the United            decisions are made consistently                      requirements for instructor
States, Afghanistan, and other               across organizations involved in                     qualifications and content of
countries.67                                 a multi-agency or international ef­                  training.
   Previous oversight coverage has           fort, 3) performance of threat and              •	   Determine the number of Af­
identified a number of shortcom­             risk assessments, 4) planning to                     ghan legal professionals trained
ings that put rule-of-law programs           coordinate construction with timely                  under rule-of-law programs and
at high risk. An inspection per­             delivery of fixtures, furniture and                  the number that are still em­
formed by the DoS OIG, “Rule­                equipment, and 5) more inclusive                     ployed by the Afghan Govern­
of-Law Programs in Afghanistan”              sustainment planning. In April 2012,                 ment in the justice sector.
(Report No ISP-I-08-09 issued                DoS noted that judges and pros­                 •	   Assess progress and outcomes
January 2008) cited the need to 1)           ecutors have often refused to take                   of rule-of-law programs to
improve coordination of judicial             assignments or have left districts                   develop the capacity within
training programs among DoD,                 because of security concerns.68                      Afghan justice institutions for
Afghan Government, and interna­              Some of these concerns include a                     planning, financing, communi­
tional donors to establish unity of          shortage of professional security                    cation, and functionality at the
effort, 2) develop a strategic plan to       guards to provide physical security                  national and provincial levels.
guide rule-of-law efforts, 3) gather         for court facilities and judges. 69             •	   Determine whether the Bureau
baseline knowledge about the for­               We consider rule-of-law programs                  of International Narcotics and
mal justice sector outside of Kabul,         a high risk because of the large                     Law Enforcement Affairs has
4) increase resources to develop             dollar amount of U.S. assistance                     effectively administered funds
the informal system of justice and           invested in these programs and the                   for prison construction and
to link parts of the informal sector         mixed progress achieved in advanc­                   operations of the Afghan cor­
with the formal justice system, 5)           ing the rule of law in Afghanistan.                  rectional system.
increase public awareness of the             Also, our prior oversight identified
operations of the formal justice sys­        a wide array of problems, some
tem, 6) expand the formal justice            of which persist today such as the
system to the provinces, 7) increase         lack of physical security for court
pay of justice officials’ salaries to        facilities and judges. Our planned
reduce incentive for corruption              oversight will follow up on prob­
and to implement a coordinated               lems noted in prior audits and


                                         Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   31
ISSUE 10:                                    Over the years, the Afghan
                                             Government has not made notable
ImPLEmENTING                                 progress in countering corruption.
ANTI-CORRUPTION                              In April 2009, USAID published
                                             an independent Assessment of
INITIATIVES                                  Corruption in Afghanistan that
                                             found that corruption was a signifi­
STRATEGIC ISSUE                              cant and growing problem across
                                             Afghanistan that undermined
To what extent has the Afghan                security, development, and democ­
Government implemented anti­                 racy-building objectives.71 The
corruption programs within its               assessment stated that, “Pervasive,
ministries and made progress in              entrenched, and systemic corrup­
deterring corruption by investigat­          tion is at an unprecedented scope”
ing, prosecuting, sanctioning or             and added that “Afghanistan has or
removing corrupt officials from              is developing most of the institu­
office, and implementing financial           tions needed to combat corruption,
transparency and accountability              but these institutions, like the rest
measures for government institu­             of the government, are limited by a
tions and officials?                         lack of capacity, rivalries, and poor
                                             integration.” The assessment also
RISK ASSESSmENT AND                          noted that the Afghan Government’s
PLANNED OVERSIGHT                            apparent unwillingness to pursue
COVERAGE                                     and prosecute high-level offi­
                                             cials was reported as particularly
Corruption in Afghanistan is a               problematic.
systemic and pervasive problem                  Testimony that GAO provided
that threatens to undermine sup­             to the U.S. Congress (Report No
port for the Afghan Government by            10-932T, issued July 15, 2010) dis­
the Afghan people and jeopardizes            cussed the causes of corruption and
future assistance from donor coun­           referred to Afghanistan’s National
tries including the United States.           Development Strategy. According
The U.S. Government’s Campaign               to the strategy, the causes of cor­
Plan for Afghanistan has four                ruption in Afghan Government min­
near-term objectives for countering          istries can be attributed to, among
corruption as part of the recon­             other things, a lack of institutional
struction strategy.70 They are:              capacity in public administration,
•	 Strengthen the Afghan                     weak legislative and regulatory
     Government’s capacity to                frameworks, limited enforcement of
     improve transparency and                laws and regulations, poor and non-
     accountability;                         merit-based qualifications of public
•	 Strengthen Afghan Government              officials, low salaries of public ser­
     institutions to improve financial       vants, and a dysfunctional justice
     oversight;                              sector. Furthermore, the sudden
•	 Help the Afghan Government                influx of donor money into a sys­
     build capacity to investigate,          tem already suffering from poorly
     prosecute, punish, or remove            regulated procurement practices
     corrupt officials; and                  increases the risk of corruption.
•	 Strengthen the capacity of                   Prior SIGAR audits performed
     the Afghan Government and               of Afghan anti-corruption institu­
     civil society to educate and em­        tions from 2009 to 2011, identified a
     power the public to counter the         number of problems.72 These audits
     culture of impunity.                    found that Afghanistan’s High Office


32      Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
    of Oversight and the Control and                     remained mostly ineffective
    Audit Office lacked organizational                   this quarter, and some have
    independence and enforcement                         deteriorated. According to
    powers to effectively perform their                  DoS, under the leadership of
    mission. Also, both institutions                     Dr. Azizullah Lodin, the office
    suffered from internal capacity                      of oversight has improved the
    constraints such as understaffing                    collection of asset declara­
    and inexperienced personnel with                     tions; however, the verification
    basic computer and information                       of those assets has remained
    gathering skills. Further, U.S. as­                  stagnant, and the data has not
    sistance was not guided by an                        been made public. DoS noted
    anti-corruption strategy that could                  that Lodin headed the inquiry
    provide more focused assistance to                   into the Kabul Bank scandal
    improve the capability and capac­                    that led to a cover-up of those
    ity of anti-corruption institutions.                 responsible for the bank’s
    Lastly, DoD did not maintain ef­                     failure and delayed prosecu­
    fective accountable control over                     tions. Although Lodin has been
    assistance provided to other federal                 publicly outspoken in his com­
    agencies providing advisory sup­                     mitment to fighting corruption,
    port to Afghanistan’s Major Crimes                   the office of oversight has not
    Task Force.                                          followed through with appro­
       SIGAR’s Quarterly Report to                       priate actions. This disappoint­
    the U.S. Congress dated April                        ing record has diminished the
    30, 2012 provided an overview of                     office of oversight and Lodin’s
    Afghanistan’s progress toward                        credibility.
    anti-corruption efforts. The infor­             •	   Department of Justice and the
    mation included in the quarterly                     Justice Sector Support Program
    report was furnished by DoS and                      continued their suspension of
    the Department of Treasury in data                   training the Anti-Corruption
    call responses dated March 29,                       Unit. DoS noted that training
    30 and April 6, 2012. DoS and the                    will likely resume if the work of
    Department of Treasury comment­                      the Special Cases Committee is
    ed on the following efforts:                         taken seriously.
    •	 The Afghan Attorney General’s                •	   The Major Crimes Task Force
         Office continued to avoid                       made no progress during the
         prosecuting significant corrup­                 second quarter of FY 2012 in
         tion cases this quarter: it did                 getting the Afghan Attorney
         not prosecute any high-level                    General’s Office to prosecute
         officials at the national or pro­               the public corruption cases the
         vincial levels. However, the at­                task force had developed.
         torney general’s office did form           •	   The National Assembly’s leg­
         a Special Cases Committee in                    islative committee rejected a
         January 2012 with the stated                    draft audit law to strengthen
         aim of significantly improving                  the Control and Audit Office.
         its prosecution of major cor­              •	   The Afghan Government’s Anti-
         ruption cases like the National                 Corruption Tribunals have not
         Military Hospital case, which                   had a great deal of success in
         involves the solicitation of                    countering corruption. The
         bribes for medical care by hos­                 tribunals in Kabul, Nangarhar,
         pital staff.                                    Balkh, and Herat are properly
    •	 The High Office of Oversight                      functioning; however, others
         for Anti-Corruption’s core func­                are not, including those in Kun­
         tions of combating corruption                   duz and Kandahar. Tribunal


Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   33
                                                   verification for government of­              providing continued oversight to
                                                   ficials continued to fall short              this area. The focus of our planned
                                                   of U.S. expectations. The asset              oversight is to assess DoS and
                                                   verification and registration de­            USAID compliance with restrictions
                                                   partment in the High Office of               in the Consolidated Appropriations
                                                   Oversight for Anti-Corruption                Act of 2012 and evaluate the
                                                   has insufficient staff, lacks the            Afghan Government’s progress in
                                                   expertise required to carry out              implementing key anti-corruption
                                                   its mission, and faces uncoop­               initiatives and financial transpar­
                                                   erative Afghan agencies.                     ency and accountability measures
                                              The Consolidated Appropriations                   for government institutions and
                                              Act of 2012, restricted obligation                officials. Also, we plan to assess
                                              of appropriated assistance funds                  whether U.S. assistance for anti­
                                              unless the Afghan Government                      corruption initiatives is achieving
                                              demonstrated real progress in                     intended outcomes and focused in
                                              addressing corruption. The act                    the right areas for achieving strate­
                                              states that “none of the funds                    gic objectives.
                                              appropriated for the Economic
     judges face a number of chal­            Support Fund (ESF) and                            FOCUS AREAS:
     lenges in their work includ­             International Narcotics Control and
     ing inconsistent sentencing              Law Enforcement (INCLE) may                       •	   Determine the extent to which
     standards, insufficient training,        be obligated for assistance for the                    the Afghan Government imple­
     undeveloped case management              Government of Afghanistan until                        mented anti-corruption pro­
     systems, political pressure from         the Secretary of State, in consulta­                   grams within its ministries to
     local officials, and inadequate          tion with the USAID Administrator,                     include performing vulnerabil­
     facilities.                              certifies that the Government of                       ity to corruption assessments
•	   A policy aimed at implementing           Afghanistan is (i) reducing corrup­                    and redesigning business pro­
     a merit-based hiring system of           tion and improving governance,                         cesses to mitigate corruption
     provincial and deputy-provin­            including by investigating, pros­                      vulnerabilities consistent with
     cial governors has remained              ecuting, sanctioning or removing                       the guidance provided by the
     stalled since May 2011, when             corrupt officials from office and                      Afghan High Office of Oversight
     the policy was suspended. A              implementing financial transpar­                       for Anti-Corruption.
     new policy was at the Presi­             ency and accountability measures                  •	   Assess the criteria and reli­
     dent’s Office pending approval           for government institutions and offi­                  ability of the information that
     as of March 31, 2012. The Inde­          cials (including the Central Bank)                     DoS and USAID used to certify
     pendent Appointments Board               as well as conducting oversight of                     that the Afghan Government is
     of the Civil Service Commission          public resources; (ii) taking cred­                    reducing corruption in order
     has continued to appoint civil           ible steps to protect the human                        to meet the aid restrictions as
     servants in grades one and two           rights of Afghan women; and (iii)                      defined in the Consolidated Ap­
     to line ministries, using a merit-       taking significant steps to facilitate                 propriations Act, 2012, Section
     based system.                            active public participation in gover­                  7046(a)(1) for the Economic
•	   The Afghan Government has                nance and oversight.”73                                Support Fund and the Interna­
     had some difficulties in con­               To date, the Afghan Government                      tional Narcotics Control and
     ducting financial oversight of           has not made significant progress                      Law Enforcement Fund.
     its ministries. Managers within          in dealing with corruption. Making                •	   Determine whether U.S. as­
     ministries have not established          sustainable progress in reducing                       sistance to the Afghan Gov­
     and clearly communicated the             corruption becomes increasingly                        ernment for anti-corruption
     objectives of financial controls,        important as the U.S. Government                       programs is achieving intended
     and there are few procedural             plans to provide much of its fu­                       outcomes and focused in ar­
     documents to help most staff             ture reconstruction assistance to                      eas that can have the greatest
     understand the controls.                 Afghanistan through the Afghan                         impact on achieving strategic
•	   The Afghan Government’s                  Government. Because of the cor­                        objectives.
     progress in implementing asset           ruption risk, we are committed to


34       Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
CROSSCUTTING ISSUES
Crosscutting issues cover general support-type activities that span multiple sec­
tors and subsectors of Afghanistan’s reconstruction. They typically do not have
a particular reconstruction appropriation that applies to the issue. Examples of
support-type activities associated with crosscutting issues include financial man­
agement, contracting, staffing and security of reconstruction mission activities.
  We have identified three crosscutting issues that have an important impact on
the long-term effectiveness of the U.S. reconstruction effort: (i) planning and co­
ordination of U.S. assistance programs, (ii) stewardship of direct assistance funds,
and (iii) the award and administration of contracts in support of Afghanistan re­
construction efforts.




                                         Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   35
ISSUE 11: PLANNING                           poorly designed and have unin­                         part of contractors, have costly
                                             tended consequences such as                            outcomes: time and money mis­
AND COORDINATION                             fueling corruption, distorting labor                   spent are not available for other
OF U.S. ASSISTANCE                           and goods markets, undermining                         purposes, missions are not
                                             the host government’s ability to                       achieved, and lives are lost.
PROGRAmS                                     exert control over resources, and                 •	 Criminal behavior and blatant
                                             contributing to insecurity. The staff                  corruption steal dollars from
STRATEGIC ISSUE                              report also said that achievability                    what could otherwise be suc­
                                             of programs comes into question                        cessful project outcomes and,
To what extent has the U.S.                  when program goals and measur­                         more disturbingly, contribute
Government vetted and designed               able outcomes aren’t well defined                      to a climate in which huge
assistance programs to ensure                and when risks of achieving out­                       amounts of waste are accepted
they are necessary, achievable, and          comes are not weighed against the                      as the norm.
sustainable; and has the United              benefits and costs.                               In addition, the commission’s report
States coordinated the programs                The Commission on Wartime                       stated that much of the wasteful
to achieve unity of effort with the          Contracting in Iraq and Afghanistan               contracting in Afghanistan and
Afghan Government and the inter­             stated in its final report75 that con­            Iraq can be attributed to poor
national donor community?                    tract waste, fraud, and abuse take                interagency planning. The commis­
                                             many forms:                                       sion cited a need for a field-based
RISK ASSESSmENT AND                          •	 An ill-conceived project, no                   common operating picture for
PLANNED OVERSIGHT                                 matter how well-managed, is                  all agencies that can enhance
COVERAGE                                          wasteful if it does not fit the              the interagency and multilateral
                                                  cultural, political, and eco­                process, particularly the effective
A 2011 Senate staff report recom­                 nomic norms of the society it is             and efficient use of contracted
mended that U.S. assistance focus                 meant to serve, or if it cannot              resources. The commission’s
on what is necessary, achievable,                 be supported and maintained.                 report further stated, “Effective
and sustainable.74 The report                •	 Poor planning and oversight by                 interagency coordination demands
reflected Congressional concerns                  the U.S. Government, as well                 that roles and responsibilities be
that assistance programs were                     as poor performance on the                   clearly defined and assigned to the




36      Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
appropriate agency or mix of agen­           of systemic problems with the                   outcomes. We will also determine
cies. In both Washington and the             transparency and coordination of                if recommendations made to can­
field, interagency operations need           development assistance.77 One of                cel, modify, or postpone projects
to be staffed with the appropriate           these problems was a lack of vis­               were implemented. Also, we will
mix of civilian and military person­         ibility and program coordination                evaluate programs for unity of ef­
nel. Yet no existing interagency             that adversely impacted the Afghan              fort across the U.S. Government
process can assess arguments for             Government’s ability to prepare                 to include coordination with the
or against substantial involvement           and execute development budgets                 Afghan Government and interna­
of organizations operating in virtu­         because of concern about duplicat­              tional donors. These efforts will
ally identical spheres of activity.          ing programs being administered                 help to prevent program duplication
With billions of taxpayer dollars            by the U.S. Government and the                  and overlap and better ensure the
involved, this is a situation ripe for       international donor community.                  programs have the support of the
overlaps or gaps and the waste that          The World Bank, Asia Development                Afghan Government and are ex­
comes with them.” 76                         Bank, and individual countries were             ecuted in a manner to fully leverage
   Many of the problems cited in             all engaged in development and                  the resources of the international
the Senate staff report and the              governance programs similar to                  community.
Wartime Commission’s report                  those funded by the United States.
were first disclosed through our             The report stated that unless these             FOCUS AREAS
prior oversight. For example,                efforts are coordinated, there is
a SIGAR report titled “A Better              the potential risk of duplication.              •	   Determine if DoD, USAID, and
Management Information System                Achieving unity of effort across all                 DoS have processes in place
Is Needed to Promote Information             development programs whether                         and working to vet and design
Sharing, Effective Planning, and             initiated by the U.S. Government,                    assistance programs to ensure
Coordination of Afghanistan                  Afghan Government, or internation­                   that they are necessary, achiev­
Reconstruction Activities,” (Report          al donors can provide opportunities                  able, and sustainable.
No 09-03, issued July 30, 2009), rec­        to better leverage capabilities to              •	   Evaluate where the U.S. Gov­
ommended a single management                 deliver mutually supporting benefits                 ernment’s economic develop­
information system that provides             that would have a greater impact on                  ment programs fall on a contin­
complete and accurate information            the Afghan people.                                   uum from low risk/low reward
of all completed, underway, and                 In June 2011, the USAID                           (e.g., assistance to individual
planned reconstruction activities.           Administrator issued sustainability                  enterprises) to high risk/high
The report stated that an integrated         guidance for Afghanistan. The guid­                  reward (e.g., supporting policy
management information system                ance required an examination of                      reforms that have an effect on
that provides a common operating             all USAID/Afghanistan’s projects                     national competitiveness), and
picture of all U.S. reconstruction           against the principles of: (1) Afghan                determine what results they
activities in Afghanistan would              ownership and capacity, (2) their                    achieved at what cost.
provide essential information for            contribution to stability and con­              •	   Verify if DoD, USAID and DoS
the decision-makers to better plan,          fidence, and (3) cost and program                    are fully coordinating projects
coordinate, monitor, and report on           effectiveness. The guidance further                  (need, priorities, funding, and
U.S. activities. Without an effective        stated that programs should be rec­                  the timing of execution) to pre­
management information system or             ommended for modification, post­                     vent duplication and achieve
other means to provide a complete            ponement, or cancellation if they do                 mutually supporting outcomes
view of reconstruction efforts un­           not align with these principles.                     to deliver optimum benefits.
dertaken by the various U.S. enti­              Our planned oversight coverage               •	   Assess the extent to which the
ties operating in Afghanistan, there         will review programs and proj­                       U.S. Government is coordinat­
is an increased chance of duplica­           ects to ensure they are necessary,                   ing its assistance projects with
tion of efforts, conflicting ventures,       achievable, and sustainable; and                     the Afghan Government and the
and overall wasted resources.                comply with the principles of the                    international community in the
   SIGAR issued a report in October          administrator’s guidance. As part of                 programming and execution of
2010 on the reporting and coordi­            this oversight, we will examine the                  projects to prevent duplication
nation of development assistance             cost-effectiveness of programs and                   and achieve unity of effort.
within Afghanistan’s Nangarhar               projects to include the risks, antici­
Province and found a number                  pated benefits, and performance


                                         Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   37
ISSUE 12: PROVIDING                          operating costs, salaries, agricul­               disbursed through the Afghan
                                             tural development programs, and                   Government. Currently, the systems
STEwARDSHIP OF                               infrastructure projects. USAID                    and internal controls needed to
DIRECT ASSISTANCE                            also provides direct assistance                   both determine appropriate opera­
                                             via the World Bank-administered                   tions and maintenance spending
FUNDS                                        Afghanistan Reconstruction Trust                  levels and ensure that the amounts
                                             Fund. The trust fund provides funds               budgeted for operations and main­
STRATEGIC ISSUE                              through the Afghan Government                     tenance are deployed and disbursed
                                             national budget to finance the gov­               for the appropriate activities, are
To what extent are Afghan                    ernment’s recurrent operating costs               uniformly deficient throughout the
Government ministries providing              (e.g., wages for civil servants, oper­            ministries.”
stewardship of direct assistance             ations and maintenance costs) and                    GAO conducted an audit dur­
funds and achieving favorable                national development programs.81                  ing 2011 of U.S. direct assistance
outcomes from programs funded                  DOD provides direct assistance                  to Afghanistan and assessed the
through direct assistance?                   bilaterally to Afghanistan’s Ministry             steps taken by USAID and DOD to
                                             of Defense and Ministry of Interior               ensure accountability over direct
RISK ASSESSmENT AND                          through contributions of funds                    assistance funds.84 The audit con­
PLANNED OVERSIGHT                            overseen by DOD’s Combined                        cluded that USAID and DoD had
COVERAGE                                     Security Transition Command–
                                             Afghanistan. According to DOD
As of February 2012, the United              guidance, these contributions
States was disbursing more than 40           are used to procure food, sala­
percent of its aid funds through the         ries, goods, services, and minor
Afghan Government in the form of             construction in direct support of
direct, or on-budget, assistance.78          the Afghan National Army and
The U.S. goal is to provide 50% of           the Afghan National Police. Also,
assistance directly through on-              Combined Security Transition
budget mechanisms to the Afghan              Command–Afghanistan contributes
Government, but that commitment              funds to the multilateral United
assumes significant improvements             Nations Development Program-
in accountability and financial              administered Law and Order Trust
management within the various                Fund for Afghanistan, which mostly
ministries.79                                funds salaries of the Afghanistan
  USAID and DOD provide direct               National Police.82
assistance to Afghanistan, using               Nevertheless, DoD, in its April
bilateral agreements and multilat­           2012 progress report on security
eral trust funds that provide funds          and stability in Afghanistan pointed
through the Afghan national bud­             out serious shortcomings in the
get.80 USAID bilateral agreements in         Afghan Government’s capability
Afghanistan include arrangements             to manage on-budget operations
with the Independent Directorate             and maintenance funds.83 This
for Local Governance (District               report stated that, “The ministries
Delivery Program), and with the              responsible for critical assets pos­
ministries of Agriculture, Irrigation,       sess limited ability to adequately
and Livestock; Communications                execute an operations and main­
and Information Technology;                  tenance plan on the scale required
Finance; Public Health; and                  in Afghanistan, with the power and
Transport and Civil Aviation. Some           water sectors having the most ca­
of the bilateral agreements finance          pability. The limitations in internal
Afghan Government procurement                technical capacity, as well as con­
of goods and services, while others          tracting and procurement…inhibit
fund a range of other government             the effectiveness of any increase in
expenses and activities, including           operations and maintenance budget


38      Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
taken steps to ensure accountability        Government is ranked as one of the                Although the risks related to
by conducting risk assessments              worst nations in the world regard­              stewardship of direct assistance
and implementing financial and              ing corruption.85                               funds is widely recognized, little is
procurement controls to mitigate               Direct assistance to the Afghan              known about outcomes achieved
identified risks before entering into       Government involves considerable                by the Afghan Government from
bilateral agreements with Afghan            risk given the extent of corruption             on-budget development programs
ministries. DoD also reviewed               and the weak institutional capacity             funded through direct assistance.
direct assistance expenditures to           of the Afghan Government to man­                The World Bank reported that only
make sure the ministries used the           age finances. Because of the billions           about 10-25 percent of the off-
funds as intended. However, the             of dollars provided to the Afghan               budget aid is spent in Afghanistan
audit found that USAID didn’t fully         Government in direct assistance,                compared to 70-90 percent of
comply with its internal controls           we will provide oversight to ensure             the aid administered through the
procedures in approving Afghan              that the U.S. Government has the                Afghan Government.86 Thus, on-
conducted procurement actions.              proper controls in place and work­              budget expenditures by the Afghan
   Members of Congress have                 ing to provide assurance that the               Government have a much greater
publically questioned whether it            Afghan Government and trust fund                impact on Afghanistan’s economy
is prudent to provide additional            administrators are exercising effec­            compared to aid programs adminis­
direct assistance when the Afghan           tive stewardship of these funds.                tered by international donors. If the
                                                                                            Afghan Government can achieve
                                                                                            favorable outcomes from its on-
                                                                                            budget development activities, the
                                                                                            U.S. Government and international
                                                                                            donors may be more amenable to
                                                                                            assume greater risk in providing ad­
                                                                                            ditional direct assistance. In review­
                                                                                            ing stewardship of direct assistance
                                                                                            funds, our planned oversight will
                                                                                            evaluate the extent to which the
                                                                                            Afghan Government is achieving
                                                                                            intended outcomes from its on-bud­
                                                                                            get development programs.

                                                                                            FOCUS AREAS:

                                                                                            •	   Examine whether DoS and US­
                                                                                                 AID are maintaining sufficient
                                                                                                 oversight over the use of direct
                                                                                                 assistance funds to ensure the
                                                                                                 Afghan Government is exercis­
                                                                                                 ing proper stewardship.
                                                                                            •	   Evaluate whether the Afghan
                                                                                                 Government is exercising fi­
                                                                                                 nancial management of direct
                                                                                                 assistance funds and achiev­
                                                                                                 ing expected outcomes (cost,
                                                                                                 schedule, performance) for pro­
                                                                                                 grams funded through direct
                                                                                                 assistance.




                                        Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   39
ISSUE 13: AwARDING                           contracting and provide better over­              •	   Awarding new contracts or re­
                                             sight. For example, DoD’s FY 2013                      structuring existing contracts
AND ADmINISTERING                            budget request cites a number of                       (e.g. host nation trucking) to
RECONSTRUCTION                               steps it has taken to improve con­                     promote greater competition,
                                             tingency contracting including:88                      eliminate layers of subcontrac­
CONTRACTS                                    •	 Establishing the Afghanistan                        tors, and allow more trans­
                                                 Resources Oversight Council                        parency into the contracted
STRATEGIC ISSUE                                  to oversee funds appropri­                         support.
                                                 ated to the ANSF, Afghanistan                 •	 Establishing the International
To what extent did DoD, State, and               Infrastructure Fund, and Com­                      Security Assistance Force Re­
USAID award contracts competi­                   mander’s Emergency Response                        gional Command East integra­
tively and administer contracts for              Program.                                           tion cell in 2011 and enhanced
Afghanistan’s reconstruction in              •	 Having the Defense Contract                         the process for determining
a manner to ensure that costs                    Management Activity fill 88                        construction requirements by
are controlled and contractors                   percent of its contracting of­                     adding qualified engineering
remain on schedule and perform as                ficer representative positions in                  review and helping increase use
required?                                        Afghanistan.                                       of standard designs and pre-
                                             •	 Standardizing qualifications and                    engineered buildings.
RISK ASSESSmENT AND                              training of contracting officer               •	 Implementing construction
PLANNED OVERSIGHT                                representatives.                                   contracting guidelines (Oc­
COVERAGE                                     •	 Nearly eliminating all cash pay­                    tober 2010) that includes 16
                                                 ments to Afghan vendors—over                       “go/no go” criteria, including
The Inspectors General have                      99 percent of payments made                        sustainability.
reported extensively on poorly                   electronically.                               DoD has, however, also noted
written contracts and inadequate             •	 Employing procedures to iden­                  challenges including 1) maintain­
government administration                        tify high-risk contractors and                ing adequate numbers of trained
and monitoring of contracts in                   vetting non-U.S. contractors                  oversight personnel and contracting
Afghanistan. The Commission on                   before awarding contracts to                  officers, 2) combating corruption,
Wartime Contracting in Iraq and                  ensure the contractors do not                 3) ensuring smooth DoD to DoS
Afghanistan also reported on these               have a history of fraud or are                transition in Afghanistan, and 4)
problems in its 2011 final report on             otherwise not eligible for con­               ensuring sustainability of recon­
contingency contracting. 87                      tract awards such as ties to in­              struction projects in Afghanistan.89
  DoD, DoS, and USAID have all                   surgents or being debarred and                  DoS, in its FY 2013 budget, cited
taken steps to improve contingency               suspended.                                    actions to improve contract over­
                                                                                                                sight including add­
                                                                                                                ing up to 25 govern­
                                                                                                                ment technical moni­
                                                                                                                tors and contracting
                                                                                                                officer representa­
                                                                                                                tives to its Bureau
                                                                                                                of International
                                                                                                                Narcotics and Law
                                                                                                                Enforcement to help
                                                                                                                oversee its programs
                                                                                                                and contracts.90
                                                                                                                   USAID has in­
                                                                                                                stituted the on-site
                                                                                                                monitors program
                                                                                                                to identify field
                                                                                                                staff at regional
                                                                                                                platforms who can
                                                                                                                act as the “eyes
                                                                                                                and ears” of project


40      Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
management personnel in Kabul,             duties in contingency areas such                overbilled by contractors for items
providing real-time data on project        as Afghanistan. Also, contracting               and services procured. Accordingly,
performance and accountability.91          officer representatives do not al­              we plan to significantly increase the
During 2011, USAID implemented             ways have the necessary subject                 number of incurred cost audits of
its Accountable Assistance for             area-related technical expertise                contracts and grants to verify that
Afghanistan—or A3—initiative.              to oversee contracts they were                  the costs contractors billed to the
This initiative focuses on reducing        assigned to oversee. Additionally,              government are valid. Further, our
subcontracting layers, tightening          GAO found that DoD does not                     oversight will focus on selected
financial controls, enhancing proj­        have a sufficient number of con­                high-risk areas that are vulnerable
ect oversight and improving partner        tracting officer representatives to             to abuse. For example, we will re­
vetting. USAID includes a subcon­          oversee the numerous contracts in               view whether the U.S. Government
tractor clause in new awards that          Afghanistan. A SIGAR audit report               has fully accounted for and man­
permits USAID to restrict the num­         issued April 25, 2012, evaluated                aged the disposition of contractor-
ber of subcontract tiers, requires         USAID’s oversight of contracts for              managed, government-owned
the prime contractor to perform            the Local Government Community                  equipment from awarded contracts.
a certain percentage of the work,          Development Program.94 The audit                As we audit construction projects
and prohibits subcontract “broker­         found that travel and security re­              and assistance programs, we will
ing” or “flipping” which is when a         strictions hindered USAID’s ability             continue to review the perfor­
subcontractor passes the work to           to monitor the program. Also, con­              mance of contractors and the U.S.
someone else, thereby increasing           tracts and related task orders did              Government’s oversight to make
the risk for corruption. In February       not require contractors to submit               sure that contractors are complying
2011, USAID/Afghanistan estab­             supporting documentation for their              with contract requirements.
lished an internal Vetting Support         invoices.
Unit to perform security checks               We believe the drawdown of mili­             FOCUS AREAS:
on potential USAID implementing            tary forces will make it more dif­
partners. Vetting is only executed         ficult to provide the forces needed             •	   Determine whether DoD,
on third-country and Afghan com­           for contracting officer representa­                  USAID, and DoS are using
panies and key individuals, and            tives to monitor contracts. Also,                    acquisition strategies that
occurs for all prime and subcon­           the constant rotation of contracting                 best promote competition,
tractors with awards of $150,000           personnel is a constant challenge                    minimize risk, control cost, and
and more. Also, USAID/Afghanistan          to maintain a sufficient number of                   achieve favorable performance
established a joint program with           personnel with the right qualifica­                  outcomes.
the USAID Inspector General to             tions to provide adequate oversight.            •	   Determine if the U.S. Govern­
audit all locally incurred costs of        These inherent risks are likely to                   ment obtained fair and rea­
program-funded implementing part­          continue despite the improvements                    sonable prices on goods and
ners. The audits will be performed         that DoS, DoD, and USAID have                        services purchased and if the
by internationally-accredited              made. Additionally, USAID has a                      goods and services were prop­
regionally based audit firms and           large backlog of contracts requir­                   erly delivered and accounted
checked by the Inspector General. 92       ing a financial audit of contractor’s                for throughout the acquisition
   While improvements have been            incurred cost before contracts can                   process.
made in awarding and administer­           be closed.95                                    •	   Verify whether amounts billed
ing contracts, recent audits contin­          As part of our planned oversight,                 to the U.S. Government for
ue to identify problems. On March          we will evaluate the extent to which                 contracts and grants in support
29, 2012, GAO issued a report that         the cited improvements made by                       of Afghanistan reconstruction
evaluated the training, qualifica­         DoS, DoD, and USAID have been                        were allowable, allocable and
tions, and number of contracting           implemented. A priority of our                       reasonable.
officer representatives overseeing         oversight will be to make sure that             •	   Determine whether DoD, US­
U.S. Central Command contracts.93          acquisitions have been structured                    AID, and DoS are fully account­
GAO found that DoD has taken               to control costs are effective at                    ing for and managing the dispo­
steps to enhance its existing train­       reducing subcontracting layers. We                   sition of contractor-managed,
ing program for contracting officer        will also concentrate on evaluating                  government-owned equipment
representatives, but the required          procurement actions to make sure                     from awarded contracts.
training does not fully prepare them       the government is paying fair and
to perform their contract oversight        reasonable prices and not getting

                                       Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   41
APPENDICES

42   Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
APPENDIX A
1/ REPORTS ISSUED BY OVERSIGHT ORGANIZATIONS FY 2002 - FY 2012 (as of May 31, 2012)
TABLE A.1
                                                                                                                                    Joint dod
                                                                                                             dod        dos         oig & dos                               usAid         report
 sector                                                     sub-sector                          sigAr        oig        oig            oig              AAA       gAo        oig          Totals
                                                            Infrastructure                        9          6                                                                             15
                                                       training & operations                      1          6                          4                         3                        14
 Afghan national security Forces                  equipment and transportation                    1          8                                                    1                        10
 $ 52.1 B
                                                            sustainment                           1          5                                                    2                         8
                                                          sub-sector total                       12         25                          4                         6                        47
                                                Capacity Building and Democracy                   9                                                               2           8            19
                                                            Infrastructure                        2                                                               3          11            16
                                                             Agriculture                          1                                                               3           6            10
 Governance & Development                                       CeRP                              3          2                                          2         1                         8
 $ 21.8 B                                                 economic Growth                         1                                                               2           5             8
                                                              education                                                                                                       7             7
                                                                Health                                                                                                        3             3
                                                          sub-sector total                       16          2                                          2        11          40            71
                                          Drug Interdiction and Counter-Drug Activities                      2          3               2                         3           1            11
                                                           Anti-Corruption                        4                                                                                         4
                                            Build/ Renovate Courthouses and Prisons               2          1                                                                              3
 Counter-narcotics and Law
 enforcement                                  Judges, Prosecutors, and Investigators              1                     1                                                                   2
 $ 6.0 B
                                                      Counter-narcotics Police                                          1                                                                   1
                                                          Law enforcement                                                                                         1                         1
                                                          sub-sector total                        7          3          5               2                         4           1            22
 Humanitarian Assistance                        Humanitarian Assistance Programs                                        1                                                     3             4
 $ 2.4 B
 non-Proliferation, Antiterrorism,
 Demining                                   non-Proliferation, Antiterrorism, Demining                                  1                                                                   1
 $ 0.5 B
                                                strategy, operations, and Financial
                                                                                                  4          5          2                               1        13           6            31
                                                           Management
 2/ Cross-Cutting Areas                                      Contracting                          4          7          1                               3         6                        21
                                                    Private security Contractors                  1                     2                                                     2             5
                                                          sub-sector total                        9         12          5                               4        19           8            57
 Report totals                                                                                   44         42         12               6               6        40          52           202
Definitions:

SIGAR:          Special Inspector General for Afghanistan Reconstruction

DoD OIG:        Department of Defense Office of Inspector General

DoS OIG:        Department of State Office of Inspector General

AAA:            U.S. Army Audit Agency

GAO:            Government Accountability Office

USAID OIG:      U.S Agency for International Development Office of Inspector General


Notes

1/ Total excludes reports of financial audits performed by the Defense Contract Audit Agency and non-Federal auditors, and GAO reports on congressional testimony.

2/ Cross-cutting areas include audits evaluating reconstruction strategies or support-type activities that span multiple sectors such as contingency contracting or Defense Base Act insurance;

financial management of direct assistance funds; civilian staffing requirements such as civilian uplift; private security contractors; and general embassy operations in support of the reconstruction

mission. Appropriations for cross-cutting areas are not quantifiable. A portion of the costs of these activities is funded through appropriations in the other listed sectors and appropriations for

international affairs operations.





                                                             Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012                                              43
APPENDIX B
U.S. GOVERNMENT APPROPRIATED FUNDS FOR AFGHANISTAN RECONSTRUCTION ($ MILLIONS)
The following table lists funds appropriated for Afghanistan reconstruction by program, per year, as of March 31, 2012.


TABLE B.1
 u.s. Funding sources                                                                                                            AgencY             ToTAl            FY 2002
                                              Afghanistan security Forces Fund (AsFF)                                               DoD            50,625.70               0.00
                                              train & equip (DoD)                                                                   DoD               440.00               0.00
                                              Foreign Military Financing (FMF)                                                      Dos             1,059.14              57.26
 security
                                              International Military education and training (IMet)                                  Dos                 12.06              0.20
                                              nDAA section 1207 transfer                                                            other                9.90              0.00
                                              total - security                                                                                     52,146.80              57.46
                                              Commander’s emergency Response Program (CeRP)                                         DoD             3,439.00               0.00
                                              Afghanistan Infrastructure Fund (AIF)                                                 DoD               800.00               0.00
                                              task Force for Business and stability operations (tFBso)                              DoD               559.21               0.00
                                              economic support Fund (esF)                                                          UsAID           14,953.44            117.51
                                              Development Assistance (DA)                                                          UsAID              883.65              18.30
                                              Afghanistan Freedom support Act (AFsA)                                                DoD               550.00               0.00
 Governance & Development
                                              Child survival & Health (CsH + GHAI)                                                 UsAID              554.28               7.52
                                              Commodity Credit Corp (CCC)                                                          UsAID                31.65              7.48
                                              UsAID (other)                                                                        UsAID                40.52              0.00
                                              Provincial Reconstruction team Advisors                                              UsDA                  5.70              0.00
                                              treasury technical Assistance                                                       treasury               4.45              0.90
                                              total - Governance & Development                                                                     21,821.90            151.71
 non-Proliferation, Anti-terrorism,                                                                                                 Dos               505.51              44.00
 De-Mining & Related (nADR)                   total - nADR                                                                                            505.51              44.00
                                              International narcotics Control & Law enforcement (InCLe)                             Dos             3,578.24              60.00
                                              Drug Interdiction & Counter-Drug Activities (DoD Cn)                                  DoD             2,263.40               0.00
 Counter-narcotics
                                              Drug enforcement Administration (DeA)                                                 DoJ               127.37               0.58
                                              total - Counter-narcotics                                                                             5,969.02              60.58
                                              P.L. 480 title I                                                                     UsDA                  5.00              0.00
                                              P.L. 480 title II                                                                    UsAID              716.71            159.50
                                              Disaster Assistance (IDA)                                                            UsAID              478.79            197.09
                                              transition Initiatives (tI)                                                          UsAID                35.87              8.07
                                              Migration & Refugee Assistance (MRA)                                                  Dos               749.75            135.47
                                              Voluntary Peacekeeping (PKo)                                                          Dos                 69.33             23.93
 Humanitarian
                                              emergency Refugee & Migration Assistance (eRMA)                                       Dos                 25.20             25.00
                                              Food for Progress                                                                    UsDA               109.49               0.00
                                              416(b) Food Aid                                                                      UsDA                 95.18             46.46
                                              Food for education                                                                   UsDA                 50.49              0.00
                                              emerson trust                                                                        UsDA                 22.40              0.00
                                              total - Humanitarian                                                                                  2,358.20            595.52
                                              oversight                                                                                               172.60               0.00
 International Affairs operations             other                                                                                                 6,442.40            155.60
                                              total - International Affairs operations                                                              6,615.00            155.60
 total Funding                                totAL FUnDInG                                                                                        89,416.42          1,064.87

Notes: Numbers affected by rounding. ESF funds of $100 million shifted from FY 2012 to FY 2011 to increase FY 2012 funds available for Egypt.

Sources: DoD, responses to SIGAR data call, 4/19/2012, 4/18/2012, 4/17/2012, 4/11/2012, 3/30/2012, 10/14/2009, and 10/1/2009; DoS, responses to SIGAR data call, 4/17/2012,

4/6/2012, and 4/14/2011; Treasury, response to SIGAR data call, 10/13/2011; OMB, response to SIGAR data call, 4/17/2012; USAID, responses to SIGAR data call, 4/3/2012, 10/15/2010,

1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212,

10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.



44           Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
FY 2003    FY 2004    FY 2005     FY 2006       FY 2007       FY 2008       FY 2009       FY 2010      FY 2011       FY 2012
    0.00       0.00     968.18     1,908.13      7,406.40      2,750.00     5,606.94      9,166.77     11,619.28     11,200.00
    0.00     150.00     290.00         0.00          0.00          0.00         0.00          0.00          0.00            0.00
  191.00     414.08     396.80         0.00          0.00          0.00         0.00          0.00          0.00            0.00
    0.30       0.60       0.80         0.80          1.10          1.60         1.40          1.76          1.56            1.95
    0.00       0.00       0.00         0.00          0.00          9.90         0.00          0.00          0.00            0.00
  191.30     564.68   1,655.78     1,908.93      7,407.50      2,761.50     5,608.34      9,168.53     11,620.84     11,201.95
    0.00      40.00     136.00      215.00        209.00        488.33        550.67      1,000.00        400.00          400.00
    0.00       0.00       0.00         0.00          0.00          0.00         0.00          0.00        400.00          400.00
    0.00       0.00       0.00         0.00          0.00          0.00        15.00         59.26        239.24          245.71
  239.29     893.87   1,280.56      473.39       1,210.71      1,399.51     2,088.32      3,346.00      2,067.51      1,836.76
   42.54     153.14     169.56      183.96        166.81        148.65          0.40          0.30          0.00            0.00
  165.00     135.00     250.00         0.00          0.00          0.00         0.00          0.00          0.00            0.00
   49.68      33.40      38.00       41.45        100.77         63.02         58.23         92.30         69.91            0.00
    1.33       0.00       0.00         0.00          0.00        10.77          4.22          4.22          3.09            0.55
    0.50       5.00       0.00         0.00          0.00        22.32          3.55          2.90          6.25            0.00
    0.00       0.00       0.00         0.00          0.00          0.00         5.70          0.00          0.00            0.00
    1.00       0.06       0.95         0.19          0.13          0.75         0.47          0.00          0.00            0.00
  499.34   1,260.47   1,875.07      913.99       1,687.42      2,133.35     2,726.56      4,504.98      3,185.99      2,883.02
   34.70      66.90      38.20       18.20         36.60         26.60         48.60         57.66         69.30           64.75
   34.70      66.90      38.20       18.20         36.60         26.60         48.60         57.66         69.30           64.75
    0.00     220.00     709.28      232.65        251.74        307.57        484.00        589.00        400.00          324.00
    0.00      71.80     224.54      108.05        290.97        192.81        230.06        392.27        376.53          376.37
    2.87       3.72      16.77       23.66         20.38         40.59         18.80          0.00          0.00            0.00
    2.87     295.52     950.59      364.36        563.09        540.97        732.86        981.27        776.53          700.37
    5.00       0.00       0.00         0.00          0.00         0.00          0.00          0.00          0.00            0.00
   46.10      49.20      56.60       60.00         60.00        177.00         65.41         27.40         15.50            0.00
   85.52      11.16       4.22         0.04          0.03        16.90         26.91         29.60         66.56           40.75
   11.69      11.22       1.60         0.00          0.00         0.00          0.75          0.89          1.18            0.46
   61.50      63.30      47.10       41.80         53.80         44.25         76.79         81.48         65.00           79.26
    9.90      20.00      15.50         0.00          0.00         0.00          0.00          0.00          0.00            0.00
    0.00       0.00       0.00         0.00          0.00         0.00          0.20          0.00          0.00            0.00
    4.96       9.08      30.10       23.24           9.47        20.55         12.09          0.00          0.00            0.00
   14.14      34.58       0.00         0.00          0.00         0.00          0.00          0.00          0.00            0.00
    9.27       6.12      10.02       25.08           0.00         0.00          0.00          0.00          0.00            0.00
    0.00       0.00       0.00         0.00          0.00        22.40          0.00          0.00          0.00            0.00
  248.08     204.66     165.14      150.16        123.30        281.10        182.15        139.37        148.25          120.47
    0.00       0.00       0.00         0.00          2.50        14.30         25.20         34.40         37.20           59.00
   35.30     207.60     136.10      131.90        207.80        434.40      1,060.70      1,761.70        905.10      1,406.20
   35.30     207.60     136.10      131.90        210.30        448.70      1,085.90      1,796.10        942.30      1,465.20
1,011.59   2,599.83   4,820.88     3,487.54    10,028.22       6,192.22    10,384.41     16,647.90     16,743.20     16,435.76




                                 Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012       45
APPENDIX C
 AcronYM or ABBreviATion                        deFiniTion
 AnsF	                                          Afghanistan national security Forces
 AsFF	                                          Afghanistan security Forces Fund
 CoPsWA	                                        Comprehensive oversight Plan for southwest Asia
 DABs	                                          Da Afghanistan Breshna shekat
 DoD	                                           Department of Defense
 DoD oIG	                                       Department of Defense office of Inspector General
 Dos	                                           Department of state
 Dos oIG	                                       Department of state office of Inspector General
 esF	                                           economic support Fund
 FY	                                            Fiscal Year
 GAo	                                           Government Accountability office
 InCLe	                                         International narcotics Control and Law enforcement
 sIGAR	                                         special Inspector General for Afghanistan Reconstruction
 sY	                                            solar Year
 UnoDC	                                         Un office on Drugs and Crime
 UsAAA	                                         U.s. Army Audit Agency
 UsAID	                                         U.s. Agency for International Development
 UsAID oIG	                                     U.s. Agency for International Development office of Inspector General




ENDNOTES
1	       Public Law 110-181, “The National                    Reconstruction, April 30, 2012.                           September 2011), DoS OIG audit
        Defense Authorization Act for Fiscal          8       Gen. John R. Allen’s testimony at Senate                  “Status of INL Counternarcotics
        Year 2008” (January 28, 2008), Section                Armed Services Committee Hearing on                       Programs in Afghanistan” (Report No.
        842 (d), “Investigations of Waste, Fraud,             the Situation in Afghanistan, March 22,                   MERO-A-10-02 issued December 2009),
        and Abuse in Wartime Contracting                      2012.                                                     DoD OIG audit “Afghan National Police
        and Contracting Processes in Iraq             9       Congressional Research Service report                     Metrics Product” (Report No DODIG­
        and Afghanistan”, and Public Law                      “Afghanistan: Post-Taliban Governance,                    2012-034.1, issued November 2011),
        112-74, Consolidated Appropriations                   Security, and U.S. Policy”, dated                         and SIGAR audit “Actions Needed
        Act, 2012 (December 23, 2011),                        February 6, 2012.                                         to Improve the Reliability of Afghan
        Division I, “Department of State,             10      SIGAR Quarterly Report to the                             Security Force Assessments” (Report
        Foreign Operations, and Related                       U.S. Congress on Afghanistan                              No SIGAR Audit 10-11, issued June
        Programs Appropriations Act, 2012,                    Reconstruction, April 30, 2012.                           2010).
        Title VII, “General Provisions, Section               Unobligated equipment amount was                   12     SIGAR Quarterly Report to the
        7046, “Afghanistan”, paragraph (3),                   calculated by subtracting reported                        U.S. Congress on Afghanistan
        “Oversight”.                                          disbursements as of March 31, 2012                        Reconstruction, April 30, 2012.
2	       COPSWA update as of June 27, 2012.                   for equipment and transportation from              13     Congressional Research Service report
3	       SIGAR Quarterly Report to the                        total appropriations for equipment and                    “Afghanistan: Post-Taliban Governance,
        U.S. Congress on Afghanistan                          transportation. Planned construction                      Security, and U.S. Policy”, dated
        Reconstruction, April 30, 2012.                       amount represents the sum of planned                      February 6, 2012.
4	       Majority Staff Report “Evaluating U.S.               construction as reported in the quar­              14     DoD Security Cooperation Agency guid­
        Foreign Assistance to Afghanistan”,                   terly report for the ANA and ANP.                         ance “Execution and Closure Guidance
        Committee on Foreign Relations U.S.           11      DoD OIG inspection “Assessment of                         for Pseudo Letters of Offer and
        Senate, June 8, 2011.                                 U.S. Government Efforts to Train,                         Acceptance (Pseudo Cases) Financed
5	       Gen. John R. Allen’s testimony at Senate             Equip, and Mentor the Expanded                            with U.S. Appropriated Funds that have
        Armed Services Committee Hearing on                   Afghan National Police” (Report                           a Limited Period of Avalability”, issued
        the Situation in Afghanistan, March 22,               No SPO-2011-003, issued Mar 2011),                        by DSCA-DBO, January 2011.
        2012.                                                 DoD OIG audit “Improved Pricing                    15     DoD Security Cooperation Agency guid­
6       Chicago Summit Declaration on
                        and Oversight Needed for the                              ance “Execution and Closure Guidance
        Afghanistan, May 21, 2012.
                           Afghan Air Force Pilot and English                        for Pseudo Letters of Offer and
7       SIGAR Quarterly Report to the
                        Language Training Task Order”                             Acceptance (Pseudo Cases) Financed
        U.S. Congress on Afghanistan                          (Report No D-2011-113, issued                             with U.S. Appropriated Funds that have


46          Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
     a Limited Period of Avalability”, issued               September 2011                                   Electoral Capacity” (Report No. 09-6,
     by DSCA-DBO, January 2011.                       30    Congressional Research Service report,           issued September 22, 2009).
16   DoD report “Progress Toward Security                   “Afghanistan: Post-Taliban Governance,      45   USAID OIG Audit Report “USAID/
     and Stability in Afghanistan”, April 2012.             Security, and U.S. Policy”, dated                Afghanistan’s Support to the Electoral
17   DoD 1230 Report, “Report on Progress                   February 6, 2012.                                Process (STEP) and Support for
     Toward Security and Stability in                 31    SIGAR Quarterly Report to the                    Increased Electoral Participation in
     Afghanistan—U.S. Plan for Sustaining                   U.S. Congress on Afghanistan                     Afghanistan (IEP) Programs”,(Report
     the Afghanistan National Security                      Reconstruction, April 30, 2012 and DoS           No. F-306-11-003-P, issued June 19,
     Forces”, April 2012.                                   response to SIGAR data call, 3/30/2012.          2011).
18   GAO report titled “Performance-Data              32    SIGAR Quarterly Report to the               46   United Nations General Assembly
     Gaps Hinder Overall Assessment of U.S.                 U.S. Congress on Afghanistan                     Security Council report, “The Situation
     Efforts to Build Financial Management                  Reconstruction, April 30, 2012 and DoS           in Afghanistan and Its Implications for
     Capacity”, (Report No. GAO-11-907,                     response to SIGAR data call, 3/30/2012.          International Peace and Security”, dated
     issued September 2011).                          33    SIGAR Quarterly Report to the                    March 15, 2012.
19   GAO report titled “Performance-Data                    U.S. Congress on Afghanistan                47   United Nations General Assembly
     Gaps Hinder Overall Assessment of U.S.                 Reconstruction, April 30, 2012 and DoS           Security Council report, “The Situation
     Efforts to Build Financial Management                  response to SIGAR data call, 3/30/2012.          in Afghanistan and Its Implications for
     Capacity”, (Report No. GAO-11-907,               34    DoD Office of General Counsel                    International Peace and Security”, dated
     issued September 2011).                                Memorandum for Director of Defense               March 15, 2012.
20   SIGAR audit report titled “Governance                  Procurement and Acquisition Policy,         48   Report by the Civil-Military Fusion
     and Economic Development: USAID                        dated March 29, 2011, Subject:                   Centre, “Illicit Drugs & Afghanistan: Key
     Spent Almost $400 million on an Afghan                 Contractors in Afghanistan and                   Trends”, May 2012.
     Stabilization Project Despite Uncertain                Iraq—Assistance in Responding to            49   SIGAR Quarterly Report to the
     Results, But Has Taken Steps To Better                 Questions Regarding Taxation under               U.S. Congress on Afghanistan
     Assess Similar Efforts”, (Report No.                   the Respective Status of Forces                  Reconstruction, April 30, 2012.
     SIGAR Audit 12-8, issued April 25, 2012)               Agreements.                                      Amounts derived from DoS response to
     and USAID OIG report titled “USAID/              35    Afghanistan’s SY1390 National Budget             SIGAR data call, April 6, 2012 and DoD
     Afghanistan’s Afghanistan Stabilization                (March 2011-March 2012).                         response to SIGAR data call, April 17,
     initiative for Southern Region”, (Report         36    SIGAR Quarterly Report to the                    2012.
     No. F-306-12-001-P, issued Nov 1, 2011).               U.S. Congress on Afghanistan                50   DoS Congressional Budget Justification
21   Majority Staff Report--Evaluating U.S.                 Reconstruction, April 30, 2012.                  for Foreign Operations for FY 2013 and
     Foreign Assistance to Afghanistan,               37    SIGAR Quarterly Report to the                    DoD Congressional Budget Justification
     Committee on Foreign Relations United                  U.S. Congress on Afghanistan                     for FY 2013, DoD Counter-Narcotics.
     States Senate, June 8, 2011.                           Reconstruction, April 30, 2012.             51   DoD response to SIGAR data calls
22   Report by the Commission on Wartime              38    USAID Fact Sheet Afghanistan Civil               for SIGAR Quarterly Reports to
     Contracting in Iraq and Afghanistan,                   Service Support, http://afghanistan.             the U.S. Congress on Afghanistan
     “Transforming Wartime Contracting,                     usaid.gov/en/USAID/Activity/165/                 Reconstruction. April 30, 2012.
     Controlling costs, Reducing Risks”,                    Afghanistan_Civil_Service_Support_          52   DoS Congressional Budget Justification
     August 2011.                                           ACSS.                                            for Foreign Operations for FY 2013.
23   GAO Report 11-138, titled “Afghanistan           39    IARCSC news article, June 6, 2012,          53   U.S. Government Integrated Civilian –
     Development: U.S. Efforts to Support                   IARCSC website http://iarcsc.gov.af/en/          Military Campaign Plan for Support of
     Afghan Water Sector Increasing, but                    news/10260.                                      Afghanistan, February 201.1
     Improvements Needed in Planning and              40    SIGAR Report 11-5, “Actions Needed          54   U.S. Government Integrated Civilian –
     Coordination”, issued November 2010.                   to Mitigate Inconsistencies in and Lack          Military Campaign Plan for Support of
24   Consolidated Appropriations Act, 2012,                 of Safeguards over U.S. Salary Support           Afghanistan, February 2011.
     Public Law 112-74, Section 7046(a)(1)                  to Afghan Government Employees and          55   DoS Congressional Budget Justification
     ESF & INCLE Restriction.                               Technical Advisors” (Report Number               for Foreign Operations for FY 2013.
25   The World Bank, Afghanistan in transi­                 11-5, issued October 29, 2010.              56   DoS Congressional Budget Justification
     tion: Looking Beyond 2014, Volume 1:             41    SIGAR audit report “Despite                      for Foreign Operations for FY 2013.
     Overview, May 2012.                                    Improvements in MoI’s Personnel             57   United Nations Office on Drugs and
26   President Hamid Karzai’s speech at the                 Systems, Additional Actions Are                  Crime (UNODC) Afghanistan Opium
     Bonn Conference December 5, 2011.                      Needed to Completely Verify ANP                  Survey, December 2011
27   Tokyo Conference on Afghanistan,                       Payroll Costs and Workforce Strength”       58   Summation of quarterly seizures
     The Tokyo Declaration Partnership                      (Report No 11-10, issued April 25, 2011).        cited in SIGAR Quarterly Reports to
     for Self-Reliance in Afghanistan from            42    DoD OIG report tilted “Distribution              the U.S. Congress on Afghanistan
     Transition to Transition, Tokyo mutual                 of Funds and Mentoring of Finance                Reconstruction dated July 30, 2011;
     Accountability Framework, July 9, 2012.                Officers for the Afghanistan National            October 30, 2011; January 30, 2012; and
28   Tokyo Conference on Afghanistan,                       Army Payroll Need Improvement”                   April 30, 2012.
     The Tokyo Declaration Partnership                      (Report No. D-2012-058, Issued              59   “GAO report titled “Strategy Evolving
     for Self-Reliance in Afghanistan from                  February 29, 2012).                              and Progress Reported, but Interim
     Transition to Transition, Tokyo mutual           43    DOS Congressional Budget Justification           Performance Targets and Evaluation of
     Accountability Framework, July 9, 2012.                for Foreign Operations FY 2013                   Justice Reform Efforts Needed” (Report
29   SY1391-1393 Afghanistan Ministry                 44    SIGAR audit report “Strategy and                 No GAO-10-291, issued March 9, 2010).
     of Finance Pre-Budget Document,                        Resources Needed to Sustain Afghan          60   GAO Report titled “Preliminary



                                                  Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012         47
     Observations on the Department                 Office of Oversight Needs Significantly          Improve Accountability of U.S.
     of Defense’s Counternarcotics                  Strengthened Authority, Independence,            Assistance to Afghanistan Government”,
     Performance Measurement System”                and Donor Support to Become an                   (Report No. GAO-11-710, issued July 20,
     (Report No GAO-10-594R, April 30,              Effective Anti-Corruption Institution            2011).
     2010).                                         (Report No 10-2, issued December            83   DoD Report on Progress Toward
61   DOS OIG audits included “Status                16, 2009), “Afghanistan’s Control and            Security and Stability in Afghanistan,
     of the Bureau of International                 Audit Office Requires Operational and            dated April 2012.
     Narcotics and Law Enforcement                  Budgetary Independence, Enhanced            84   GAO titled “Actions Needed to Improve
     Affairs Counternarcotics Programs              Authority, and Focused International             Accountability of U.S. Assistance to
     in Afghanistan”, (Report No                    Assistance to Effectively Prevent                Afghanistan Government”, (Report No.
     MERO-A-10-02, issued December                  and detect Corruption” (Report                   GAO-11-710, issued July 20, 2011).
     2009); “DynCorp Operations and                 No 10-8 issued April 9, 2010), “U.S.        85   Hearing on Oversight of Iraq and
     Maintenance Support at Camp Falcon             Reconstruction Efforts in Afghanistan            Afghanistan Operations, House
     in Kabul, Afghanistan”, (Report No.            Would Benefit from a Finalized                   Oversight and Government Reform
     MERO-I-11-12, issued August 31,                Comprehensive U.S. Anti-Corruption               Subcommittee on National Security,
     2011); and ‘‘Performance Evaluation            Strategy (Report No 10-15 issued                 Homeland Defense and Foreign
     of PAE Operations and Maintenance              August 5, 2010), and U.S. Agencies               Operations, December 7, 2012.
     Support for the Bureau of International        Have Provided Training and Support to       86   World Bank report titled “Afghanistan
     Narcotics and Law Enforcement Affairs’         Afghanistan’s Major Crimes Task Force,           in Transition: Looking Beyond 2014,
     Counternarcotics Compounds in                  but Reporting and Reimbursement                  Volume 1: Overview, dated May 2012.
     Afghanistan’’, (Report No MERO-I-11-02,        Issues Need to be Addressed” (Report        87   Report by the Commission on
     issued February 2011). DoD OIG audit           No 11-12 issued July 19, 2011).                  Wartime Contracting in Iraq and
     was “Contracts Supporting the DoD         73   The Consolidated Appropriations                  Afghanistan, titled “Transforming
     Counter Narcoterrorism Technology              Act, 2012, Public Law 112-74, Section            Wartime Contracting, Controlling Costs,
     Program Office,” (Report No. D-2009­           7046(a)(1) ESF & INCLE Restriction.              Reducing Risks”, issued August 2011.
     109, issued September 25, 2009).          74   Senate Majority Staff Report-­              88   Office of the Under Secretary of
62   Consolidated Appropriations Act, 2012,         Evaluating U.S. Foreign Assistance to            Defense (Comptroller)/Chief Financial
     Public Law 112-74, Section 7046(a)(1)          Afghanistan, Committee on Foreign                Officer Overview of the FY 2013 Budget
     ESF & INCLE Restriction.                       Relations United States Senate, June 8,          Request, February 2012.
63   DoD Report on Progress Toward                  2011.                                       89   Office of the Under Secretary of
     Security and Stability in Afghanistan,    75   Report by the Commission on                      Defense (Comptroller)/Chief Financial
     April 2012                                     Wartime Contracting in Iraq and                  Officer Overview of the FY 2013 Budget
64   DoD “Report on Progress Toward                 Afghanistan, titled “Transforming                Request, February 2012.
     Security and Stability in Afghanistan,”        Wartime Contracting, Controlling Costs,     90   The DoS Budget Justification, Foreign
     April 2012.                                    Reducing Risks”, issued August 2011.             Operations FY 2013.
65   SIGAR Quarterly Report to the             76   Report by the Commission on                 91   The DoS Budget Justification, Foreign
     U.S. Congress on Afghanistan                   Wartime Contracting in Iraq and                  Operations FY 2013.
     Reconstruction, April 30, 2012.                Afghanistan, titled “Transforming           92   USAID Administrator’s letter to Senator
66   Amount represents the sum of the               Wartime Contracting, Controlling Costs,          Kerry dated June 1, 2011 referred
     number of trained Afghan legal                 Reducing Risks”, issued August 2011.             to implementing the Accountable
     professions under the Justice Sector      77   SIGAR audit report “Weaknesses                   Assistance for Afghanistan—or A3—
     Reform Program as reported by DoS              in Reporting and Coordination of                 initiative, and fact sheet on A3 initiative
     and cited in SIGAR Quarterly Reports           Development Assistance and Lack                  from USAID website http://www.usaid.
     to the U.S. Congress on Afghanistan            of Provincial Capacity Pose Risks to             gov/locations/asia/countries/afghani­
     Reconstruction dated July 30, 2011,            U.S. Strategy in Nangarhar Province”             stan/aaa.html.
     October 30, 2011, January 31, 2012 and         (Report No. 11-1, issued October 26,        93   GAO report “Operational Contract
     April 30, 2012.                                2010).                                           Support: Management and Oversight
67   SIGAR Quarterly Report to the             78   Congressional Research Service report            Improvements Needed in Afghanistan
     U.S. Congress on Afghanistan                   for Congress, “Afghanistan: Post-                (Report No GAO-12-290, issued March
     Reconstruction, April 30, 2012 and             Taliban Governance, security, and U.S.           29, 2012).
     DoS/INL response to SIGAR data call,           Policy”, issued February 6, 2012.           94   SIGAR audit report “USAID Spent
     4/6/2012.                                 79   DoS Budget Justification, Foreign                Almost $400 Million on an Afghan
68   USAID, response to SIGAR data call,            Operations FY 2013.                              Stabilization Project Despite Uncertain
     7/4/2011.                                 80   GAO report “Actions Needed to                    Results, But Has Taken Steps to Better
69   SIGAR Quarterly Report to the                  Improve Accountability of U.S.                   Assess Similar Efforts”, (Report No
     U.S. Congress on Afghanistan                   Assistance to Afghanistan Government”,           12-4, issued April 25, 2012).
     Reconstruction, July 30, 2011.                 (Report No. GAO-11-710, issued July 20,     95   SIGAR audit report “USAID
70   U.S. Government Integrated Civilian –          2011).                                           Has Disbursed $9.5 billion for
     Military Campaign Plan for Support to     81   GAO report “Actions Needed to                    Reconstruction and Funded Some
     Afghanistan, February 2011.                    Improve Accountability of U.S.                   Financial Audits as Required, But
71   USAID report “Assessment of                    Assistance to Afghanistan Government”,           Many Audits Face Significant Delays,
     Corruption in Afghanistan”, January 15,        (Report No. GAO-11-710, issued July 20,          Accountability Limitations, and Lack
     2009 – March 1, 2009.                          2011).                                           of Resources, (Report No 12-9, issued
72   SIGAR audit reports “Afghanistan’s High   82   GAO report “Actions Needed to                    April 30, 2012).



48       Jointtrategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012
Joint Strategic oversight plan afghanistan reconstruction Fiscal year 2013 | July 2012   49
Copies of the Joint Strategic Oversight Plan for Afghanistan Reconstruction are available
at the internet website for the Special Inspector General for Afghanistan Reconstruction
at http://www.sigar.mil
